<html>
<title> - FAITH-BASED PERSPECTIVES ON THE PROVISION OF COMMUNITY SERVICES</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]




    FAITH-BASED PERSPECTIVES ON THE PROVISION OF COMMUNITY SERVICES

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON CRIMINAL JUSTICE,
                    DRUG POLICY AND HUMAN RESOURCES

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 26, 2004

                               __________

                           Serial No. 108-278

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
98-603                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
DAN BURTON, Indiana                  HENRY A. WAXMAN, California
CHRISTOPHER SHAYS, Connecticut       TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
MARK E. SOUDER, Indiana              CAROLYN B. MALONEY, New York
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
DOUG OSE, California                 DENNIS J. KUCINICH, Ohio
RON LEWIS, Kentucky                  DANNY K. DAVIS, Illinois
JO ANN DAVIS, Virginia               JOHN F. TIERNEY, Massachusetts
TODD RUSSELL PLATTS, Pennsylvania    WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   DIANE E. WATSON, California
ADAM H. PUTNAM, Florida              STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia          CHRIS VAN HOLLEN, Maryland
JOHN J. DUNCAN, Jr., Tennessee       LINDA T. SANCHEZ, California
NATHAN DEAL, Georgia                 C.A. ``DUTCH'' RUPPERSBERGER, 
CANDICE S. MILLER, Michigan              Maryland
TIM MURPHY, Pennsylvania             ELEANOR HOLMES NORTON, District of 
MICHAEL R. TURNER, Ohio                  Columbia
JOHN R. CARTER, Texas                JIM COOPER, Tennessee
MARSHA BLACKBURN, Tennessee          ------ ------
PATRICK J. TIBERI, Ohio                          ------
KATHERINE HARRIS, Florida            BERNARD SANDERS, Vermont 
                                         (Independent)

                    Melissa Wojciak, Staff Director
       David Marin, Deputy Staff Director/Communications Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel

   Subcommittee on Criminal Justice, Drug Policy and Human Resources

                   MARK E. SOUDER, Indiana, Chairman
NATHAN DEAL, Georgia                 ELIJAH E. CUMMINGS, Maryland
JOHN M. McHUGH, New York             DANNY K. DAVIS, Illinois
JOHN L. MICA, Florida                WM. LACY CLAY, Missouri
DOUG OSE, California                 LINDA T. SANCHEZ, California
JO ANN DAVIS, Virginia               C.A. ``DUTCH'' RUPPERSBERGER, 
JOHN R. CARTER, Texas                    Maryland
MARSHA BLACKBURN, Tennessee          ELEANOR HOLMES NORTON, District of 
PATRICK J. TIBERI, Ohio                  Columbia
                                     ------ ------

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
                     J. Marc Wheat, Staff Director
               Elizabeth Meyer, Professional Staff Member
                           Malia Holst, Clerk


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 26, 2004...................................     1
Statement of:
    Drake, Harvey, executive director, Emerald City Outreach 
      Ministry, Seattle, WA; Pastor Gregg Alex, director, 
      executive director, the Matt Talbot Center, Seattle, WA; 
      Pastor Doug Wheeler, Zion Preparatory Academy, Seattle, WA; 
      and Pastor Aaron Haskins, executive director, Coalition for 
      Community Development and Renewal, Seattle, WA.............   125
    Esau, Jill, executive Director, We Care Northwest, Seattle, 
      WA; Dan Neary, senior vice president for college 
      advancement, Northwest College, Kirkland, WA; Cal Uomoto, 
      affiliate director, World Relief, Seattle, WA; Marc 
      Maislen, Seattle Hebrew Academy, Seattle, WA; and Mary 
      Diggs Hobson, executive director, African American Reach 
      and Teach Ministry, Seattle, WA............................    14
Letters, statements, etc., submitted for the record by:
    Alex, Pastor Gregg, director, executive director, the Matt 
      Talbot Center, Seattle, WA, information concerning the Matt 
      Talbot Center..............................................   145
    Drake, Harvey, executive director, Emerald City Outreach 
      Ministry, Seattle, WA, prepared statement of...............   129
    Esau, Jill, executive Director, We Care Northwest, Seattle, 
      WA, prepared statement of..................................    17
    Haskins, Pastor Aaron, executive director, Coalition for 
      Community Development and Renewal, Seattle, WA, information 
      concerning CCDR Coalition..................................   150
    Hobson, Mary Diggs, executive director, African American 
      Reach and Teach Ministry, Seattle, WA, prepared statement 
      of.........................................................    87
    Maislen, Marc, Seattle Hebrew Academy, Seattle, WA, prepared 
      statement of...............................................    81
    Neary, Dan, senior vice president for college advancement, 
      Northwest College, Kirkland, WA, prepared statement of.....    64
    Souder, Hon. Mark E., a Representative in Congress from the 
      State of Indiana, prepared statement of....................     5
    Uomoto, Cal, affiliate director, World Relief, Seattle, WA, 
      prepared statement of......................................    70
    Wheeler, Pastor Doug, Zion Preparatory Academy, Seattle, WA, 
      information concerning Zion Preparatory Academy............   155

 
    FAITH-BASED PERSPECTIVES ON THE PROVISION OF COMMUNITY SERVICES

                              ----------                              


                         MONDAY, APRIL 26, 2004

                  House of Representatives,
 Subcommittee on Criminal Justice, Drug Policy and 
                                   Human Resources,
                            Committee on Government Reform,
                                                       Seattle, WA.
    The subcommittee met, pursuant to notice, at 10:04 a.m., at 
Emerald City Outreach Ministries, 7728 Rainier Avenue S., 
Seattle, WA, Hon. Mark E. Souder (chairman of the subcommittee) 
presiding.
    Present: Representative Souder.
    Staff present: Malia Holst, clerk; Elizabeth Meyer, 
professional staff member and counsel; and Alena Guagenti, 
legislative clerk.
    Mr. Souder. The subcommittee will come to order.
    Good morning, and thank you for joining us today as we 
continue our discussion of the role of faith-based 
organizations in the provision of social services. We are 
privileged to be conducting this hearing at the Emerald City 
Outreach Ministry facility.
    Before I get into the opening statement about what we do 
with faith-based, let me just briefly explain what our 
subcommittee is and how we work and function. In the Congress 
you have authorizing committees, for example, on education 
policy. When I sat on that committee we did No Child Left 
Behind, for example. So you have the No Child Left Behind bill. 
You have the appropriations committee that then funds the bill, 
because when you design it you say you can spend up to this 
amount in these different categories. The appropriating 
committees then appropriate up to what the authorizing 
committee said they could in specific categories. But they get 
to choose how to allocate the funding. And then last you have 
oversight committees.
    And this subcommittee is part of the Government Reform and 
Oversight Committee. So we divide up in Government Reform and 
Oversight different subcommittees to make sure that what 
Congress authorized and then funded gets executed the way it 
was intended. So in the case of faith-based organizations, 
funding and any programs sometimes may be authorized. And 
sometimes it just may be initiated by the White House.
    Well, the subcommittee that I chair, which has the broad 
name of Criminal Justice, Drug Policy and Human Resources, 
predominantly what we focus on is national drug policy. That 
has been an evolving process in the committee because we not 
only do the oversight of any drug policy in any agency, but we 
do the authorizing for the Office of National Drug Control 
Policy. This means we write much of the drug legislation that 
comes through and then oversee to see that it gets implemented.
    About half of our time to two-thirds of our time is spent 
on drug control policy, but we have a broad jurisdiction of 
other agencies. And depending on what you want to focus on as 
chairman of the subcommittee and how you want to function, we 
have jurisdiction over the Department of Education, Department 
of Housing and Urban Development, HUD; over Department of HHS, 
Health and Human Services; in addition to Department of 
Commerce. So we'll dabble in different things, although we've 
mostly focused on narcotics, the office of faith-based, the 
role of faith-based institutions and the National Park Service 
because they overlap with some of the other interests. Can you 
hear me better? To give you some ideas, sometimes it's kind of 
standard oversight, like what we're doing in this series of 
hearings. And I'm going to describe what we're doing in faith-
based, and sometimes it can be more contentious.
    When I was first elected to Congress this is the 
committee--not this subcommittee, but the committee did the 
Waco hearings, we did the China hearings, we did the 
Whitewater, some of that. We did what happened in the travel 
office. Any type of executive branch China issues and whether 
we let some secrets get to China. In other words, much of what 
you see when it hits the news are those type of high profile 
things. But this is the type of thing we do on a regular basis 
in order to analyze what the government is doing, and making 
sure that what we've funded and authorized in other committees 
gets implemented. That's the context of this.
    Most of those hearings occur in Washington, DC, the other 
Washington. But we try to get out and hold field hearings to 
hear from people at the grassroots level, not only because you 
can hear more when you get out to the grassroots and get a 
regional feel for different things. But you also get a little 
less intimidated effect than you have in Washington. The 
national associations will tend to control the testimony much 
more tightly in Washington than when you're out in the 
different regional areas.
    With that, let me go back to my formal statement. And let 
me say one other thing. The testimony you'll give today then 
gets printed up, and goes into a hearing book. This series of 
faith-based hearings we're doing, is special. There have 
probably been no other committee initiatives. There's probably 
only about two other House hearings that have ever been held, 
other than this series of hearings, and those have mostly been 
on the legal questions as it relates to a bill moving forward. 
They haven't been oversight hearings on what's happening in the 
faith-based area as a whole; they're focused on particular 
parts of the legislation that move forth when we moved that in 
Congress.
    So this hearing book will be part of a permanent record so 
as researchers look and say, what were they doing in these 
years when they argued about faith-based, there will be seven 
hearings that we've done in the different regions of the 
country that will be the ultimate kind of, the biggest chunk of 
data that will exist at the Federal level on faith-based 
organizations in the United States. The focus isn't so much on 
how many Members are at a given hearing or whether there's lots 
of press at it. We're building a record and a background 
information as people look at the faith-based issue.
    Many faith-based and community organizations across our 
Nation understand that they have a duty to help those who are 
less fortunate than they are. We are a Nation richly blessed, 
not only with government resources, but also with caring 
individuals who dedicate their lives to helping others. Through 
Charitable Choice and the Faith-Based Initiative, the 
government has recognized the tremendous resource it has in its 
faith community, and in neighborhood-based organizations. These 
groups have the ability to reach out to men and women that the 
government may never know exist.
    If, in the United States, we had an unlimited amount of 
money, we'd be able to fund every organization that is 
effectively providing social services. The hard reality is that 
we don't have unlimited resources. So we have to find a way to 
get the dollars we do have into the hands of those most 
effective and the agencies that are most effective in the 
neighborhood. The Faith-Based Initiative is designed to bring 
neutrality to the government grant system so that smaller 
community and faith-based organizations can expand their 
capacity to help people in their communities that might 
otherwise be overlooked.
    Neutrality toward all applicants requires the government 
partner not only with secular organizations, in effect 
recognizing a State-sponsored secularism, but it demands that 
government look at the merits of each program. Is the program 
helping substance abusers kick addiction? Is it helping a 
homeless woman find a home and a job? Is the program making a 
difference in the life of a child who has lost a parent to 
prison?
    Catholic Charities is an organization that for decades has 
been held up as an example, even by critics of the Faith-Based 
Initiative, of how government partnerships with faith-based 
organizations are working, because they held the service arm of 
the organization under a separate incorporated organization. 
Now the California Supreme Court has said that because Catholic 
Charities offers secular services to clients, the majority of 
whom are not Catholic, and does not directly preach Catholic 
values, the court ruled that because of that, because it is not 
a religious organization, it must therefore provide services 
contrary to Catholic teachings.
    Let me restate that again because this is a new development 
since any of our last hearings. The California Supreme Court, 
because often we hear from faith-based organizations, ``Oh, we 
serve everybody.'' Yes, anybody who gets any money from the 
government has been required to serve anybody. But because they 
serve anybody in providing food and healthcare and other 
things, they have been classified as a non-religious entity. 
The California Supreme Court isn't above that yet, that it is 
not a religious organization, because delivering food was not a 
specifically religious thing. And they've been told that 
basically, in this case it was a hospital, that they'd have to 
perform abortions. They have to now do things that they don't 
approve of because they served people who weren't Catholic. And 
as it turned, it turned on its head and is a new problem.
    A representative of Catholic Charities of California had 
planned to be with us this morning, but had an unavoidable 
conflict arise that prevented his appearance. They will be 
submitting testimony for the record that will appear in this 
hearing, and the subcommittee will continue to focus on the 
ability of faith-based organizations to provide services and 
partner with the government if they so choose, while not being 
required to redefine their mission in order to form those 
partnerships with the government.
    [The prepared statement of Hon. Mark E. Souder follows:]

    [GRAPHIC] [TIFF OMITTED] T8603.001
    
    [GRAPHIC] [TIFF OMITTED] T8603.002
    
    [GRAPHIC] [TIFF OMITTED] T8603.003
    
    [GRAPHIC] [TIFF OMITTED] T8603.004
    
    [GRAPHIC] [TIFF OMITTED] T8603.005
    
    [GRAPHIC] [TIFF OMITTED] T8603.006
    
    [GRAPHIC] [TIFF OMITTED] T8603.007
    
    [GRAPHIC] [TIFF OMITTED] T8603.008
    
    Mr. Souder. We've been having this discussion in Washington 
for quite some time. What I find to be the most frustrating is 
the tendency to lose sight of the reason we are having the 
discussion in the first place. We know that faith-based 
organizations are effectively transforming lives and 
communities. Where the discussion gets bogged down is in the 
legal questions. We need to refocus the discussion on what 
makes a faith-based organization successful. What is it that 
makes them effective? The fact that faith-based organizations 
are effective is the reason we began the discussion in the 
first place. It is a time to listen to the providers tell us 
how we can best assist them in their work. I doubt that they 
think government strings and bureaucratic red tape is something 
that they're actively seeking or would desire to seek. I 
believe that one of the best ways we as legislators can help is 
not by giving you more government strings to deal with, but by 
helping to facilitate new relationships among the providers of 
social services and the foundations that provide financial and 
technical assistance to faith-based and community 
organizations.
    The administration has established the offices for faith-
based and community initiatives in seven executive branch 
departments. These offices have been charged with identifying 
the barriers to the participation of faith-based organizations 
in providing social services. In addition, these agencies have 
been working to reach out to faith-based and community 
organizations that have not previously partnered with the 
government. Some progress has been made, but I believe we have 
a long way yet to go before we see a truly level playing field. 
The government has a very high duty to provide the most 
effective services available in the most effective, efficient 
manner possible. We need to constantly be looking for the 
programs that are helping to improve lives in the communities 
and help those organizations expand their capacity.
    At the end of the day, we as legislators need to know we 
are using all available resources to help improve the lives of 
men, women and children who need help. We need the faith-based 
community as partners. Today we have a great opportunity to 
talk with providers of a range of faith-based services who have 
been working diligently to provide positive change in the 
Seattle community. We need to understand how the unique element 
of faith impacts the structure and success of these programs.
    In Seattle you have developed a strong network of 
organizations that not only have a strong faith, but a strong 
heart for helping people in need. Our witnesses today are just 
a small fraction of the many programs that are meeting the 
needs of the greater Seattle area. I am anxious to learn about 
your work, your history, and where you believe your community 
is headed, and I look forward to your testimony.
    This is likely to be our last of the field hearings that we 
have been conducting for about a year and a half, in Texas, 
Tennessee, Chicago, Colorado and North Carolina. Did we do one 
in Florida? So we've done some in the Midwest, some in the 
Southwest, this is the upper Northwest, so we've been pretty 
well covering America. We, of course, also had a number in 
Washington, DC.
    Now, we need to do some procedural things. I ask unanimous 
consent that any Members have 5 legislative days to submit 
written statements and questions to the hearing record, and 
that any answers to written questions provided by the witnesses 
also be included in the record. Without objection, it is so 
ordered.
    I ask unanimous consent that all exhibits, documents and 
other materials referred to by Members and the witnesses may be 
included in the hearing record, and that all Members be 
permitted to revise and extend their remarks. Without 
objection, it is so ordered.
    What that means is that we have a 5-minute rule that we 
will be a little lenient with, but we don't want to get too 
disproportionate between the different people. Does this have a 
yellow? That will signal with a minute to go, but your full 
statement will be submitted to the record. If I ask any 
questions and you want to submit additional materials, or if 
you have additional materials that come up, either from the 
first or second panel, if you give them to us we'll insert 
those into the hearing record. And also if you refer to 
something we should get a copy of it. If it's a chart or 
something that you want to refer to we need to get that in the 
record, so if somebody reads it and they're going through, that 
the material that you're referring to is in the hearing record.
    Now, because this is an oversight committee, it's the only 
committee in Congress where all our witnesses are sworn in. 
We've only had, I think, two cases of prosecution for perjury, 
but in fact it happens. It's different than the other 
committees because it's actually an enforcement committee. So I 
need you each to stand and raise your right hands.
    [Witnesses sworn.]
    Mr. Souder. Let the record show that all the witnesses 
responded in the affirmative.
    And once again, thank you for coming. It's wonderful to be 
here. It's nice of you to show the best of Seattle weather for 
us when we came in today.
    It's a beautiful day, and we're going to start with Jill 
Esau, executive director of We Care Northwest in Seattle.

STATEMENTS OF JILL ESAU, EXECUTIVE DIRECTOR, WE CARE NORTHWEST, 
   SEATTLE, WA; DAN NEARY, SENIOR VICE PRESIDENT FOR COLLEGE 
   ADVANCEMENT, NORTHWEST COLLEGE, KIRKLAND, WA; CAL UOMOTO, 
 AFFILIATE DIRECTOR, WORLD RELIEF, SEATTLE, WA; MARC MAISLEN, 
  SEATTLE HEBREW ACADEMY, SEATTLE, WA; AND MARY DIGGS HOBSON, 
EXECUTIVE DIRECTOR, AFRICAN AMERICAN REACH AND TEACH MINISTRY, 
                          SEATTLE, WA

    Ms. Esau. Congressman Souder and your staff, we welcome you 
to Seattle. And it's always like this on April 26th, isn't it?
    The mission of We Care Northwest is to support the work of 
faith-based and community service organizations with the 
technical assistance, shared resources and national network of 
similar ministries, and advocacy efforts around the Puget 
Sound. We Care Northwest envisions a region where the needs of 
the hardest to serve are supplied by local communities such as 
churches, parachurch organizations, neighbors and community 
partnerships functioning in accountable relationships to 
produce measurable outcomes such as physical, spiritual, and 
emotional wholeness and self-sufficiency.
    We Care Northwest was founded in response to President 
Bush's Executive order announcing the Faith-Based and Community 
Initiative of 2001. It soon became clear that many faith-based 
and grassroots organizations were indeed interested in forming 
partnerships with government agencies, but few had grant 
writing and lobbying expertise or understanding of how 
government systems work. The need for shared information, 
training in best practices, and government contract methods was 
apparent, yet no entity existed in the Northwest to provide 
these. We Care Northwest has tried to represent faith-based and 
grassroots organizations in the public arena, while promoting 
the value and quality of the services they provide.
    The documents included in this written testimony, and I 
believe you have this booklet, give examples, just a few 
examples, of the progress We Care Northwest has made in the 
past 3 years. We now are under contract through our affiliate 
organization, We Care America in Washington, DC, to conduct 
technical trainings for SAMHSA, the Substance Abuse Mental 
Health Services Administration, which is a division of the 
Department of Health & Human Services. We are called upon to 
testify in the State legislature on behalf of faith-based 
issues, and I have briefed the staff of Governor Gary Locke on 
two occasions. We Care Northwest has also been invited to co-
sponsor a statewide conference on substance abuse and mental 
health prevention later in the year.
    These documents are not in sequential order, nor do they 
include all of our accomplishments to date, but they trace the 
progression of our advocacy efforts on behalf of faith-based 
and community organizations around the State in the midst of 
discouraging and sometimes hostile environments. I've been told 
by our attorney general's office that Washington State, ``Is 
not participating in the Faith-Based Initiative.'' You'll also 
read in Document No. 3 in the booklet that the State's mental 
health budget for 2002 was a half billion dollars, yet the DSHS 
staff could not name one faith-based organization in their list 
of providers.
    The issue of State contracts is so well concealed that even 
State legislators are not aware that DSHS is not obligated to 
consider new proposals from outside contractors. Of course, 
this makes it next to impossible for faith-based and grassroots 
organizations to acquire contracts for service, and it 
reinforces the ``good ole' boy network'' that has been in place 
for decades. Yet, with all the management problems in the State 
social service agency, including a recent embarrassing judgment 
of $17.8 million for negligence, we continue to fight a losing 
battle in the pursuit of equal consideration for quality 
services provided on shoestring budgets.
    Perhaps the greatest concern for faith-based organizations 
in Washington State and around the country is the disturbing 
developments in Congress that would strip away our protections 
that are granted to faith-based groups to hire staff of like 
mind and religious conviction. This one component is a two-
edged sword. It creates the culture of an organization through 
the personalities and values of those who conduct the direct 
service, and it could render such services ineffective by 
removing the very elements that have guided the attitudes, 
practices, and motivations of faith-based organizations for 
centuries. By rescinding the ministerial exemption Congress 
will be eliminating the vast majority of potential faith-based 
partners in the war against poverty, AIDS, substance abuse, 
criminal recidivism and the other traditional societal ills 
that plague us. There simply is no compromise on this matter.
    We Care Northwest will continue to work on behalf of faith-
based and grassroots organizations that are committed to the 
call we believe the Almighty has placed on our lives: To lead 
the brokenhearted into physical, spiritual and emotional 
wholeness, until the need is no more.
    Thank you for making this hearing possible today, and thank 
you for asking the critical questions we have been longing to 
answer.
    Mr. Souder. Thank you very much.
    [The prepared statement of Ms. Esau follows:]

    [GRAPHIC] [TIFF OMITTED] T8603.009
    
    [GRAPHIC] [TIFF OMITTED] T8603.010
    
    [GRAPHIC] [TIFF OMITTED] T8603.011
    
    [GRAPHIC] [TIFF OMITTED] T8603.012
    
    [GRAPHIC] [TIFF OMITTED] T8603.013
    
    [GRAPHIC] [TIFF OMITTED] T8603.014
    
    [GRAPHIC] [TIFF OMITTED] T8603.015
    
    [GRAPHIC] [TIFF OMITTED] T8603.016
    
    [GRAPHIC] [TIFF OMITTED] T8603.017
    
    [GRAPHIC] [TIFF OMITTED] T8603.018
    
    [GRAPHIC] [TIFF OMITTED] T8603.019
    
    [GRAPHIC] [TIFF OMITTED] T8603.020
    
    [GRAPHIC] [TIFF OMITTED] T8603.021
    
    [GRAPHIC] [TIFF OMITTED] T8603.022
    
    [GRAPHIC] [TIFF OMITTED] T8603.023
    
    [GRAPHIC] [TIFF OMITTED] T8603.024
    
    [GRAPHIC] [TIFF OMITTED] T8603.025
    
    [GRAPHIC] [TIFF OMITTED] T8603.026
    
    [GRAPHIC] [TIFF OMITTED] T8603.027
    
    [GRAPHIC] [TIFF OMITTED] T8603.028
    
    [GRAPHIC] [TIFF OMITTED] T8603.029
    
    [GRAPHIC] [TIFF OMITTED] T8603.030
    
    [GRAPHIC] [TIFF OMITTED] T8603.031
    
    [GRAPHIC] [TIFF OMITTED] T8603.032
    
    [GRAPHIC] [TIFF OMITTED] T8603.033
    
    [GRAPHIC] [TIFF OMITTED] T8603.034
    
    [GRAPHIC] [TIFF OMITTED] T8603.035
    
    [GRAPHIC] [TIFF OMITTED] T8603.036
    
    [GRAPHIC] [TIFF OMITTED] T8603.037
    
    [GRAPHIC] [TIFF OMITTED] T8603.038
    
    [GRAPHIC] [TIFF OMITTED] T8603.039
    
    [GRAPHIC] [TIFF OMITTED] T8603.040
    
    [GRAPHIC] [TIFF OMITTED] T8603.041
    
    [GRAPHIC] [TIFF OMITTED] T8603.042
    
    [GRAPHIC] [TIFF OMITTED] T8603.043
    
    [GRAPHIC] [TIFF OMITTED] T8603.044
    
    [GRAPHIC] [TIFF OMITTED] T8603.045
    
    [GRAPHIC] [TIFF OMITTED] T8603.046
    
    [GRAPHIC] [TIFF OMITTED] T8603.047
    
    [GRAPHIC] [TIFF OMITTED] T8603.048
    
    [GRAPHIC] [TIFF OMITTED] T8603.049
    
    [GRAPHIC] [TIFF OMITTED] T8603.050
    
    [GRAPHIC] [TIFF OMITTED] T8603.051
    
    [GRAPHIC] [TIFF OMITTED] T8603.052
    
    Mr. Souder. Next is Dan Neary, the senior vice president 
for College Advancement at Northwest College in Kirkland, WA.
    Mr. Neary. Congressman Souder, welcome to Seattle. Thank 
you for this opportunity to address you regarding faith-based 
organizations and our ability to offer services to our 
communities, especially in partnership with the Federal 
Government.
    It's my hope that you will look to higher education as a 
model of a longstanding, successful partnership between 
government and faith-based organizations.
    Northwest College, of course, is a faith-based 
organization. Our college started just over 70 years ago in 
partnership with a church here in Seattle, and continues to 
enjoy strong ties to our local churches throughout the region 
and our denomination, the Assemblies of God. Today, Northwest 
College has nearly 1,200 students studying in over 50 academic 
programs. We enjoy full accreditation and will complete an 
official transformation to Northwest University on January 1, 
2005.
    Our Nursing program does a fine job of highlighting the way 
Northwest College partners with the Federal Government to 
successfully deliver community services. You know that our 
country faces a real crisis in that we currently face a 
shortage of qualified nurses, and the future holds even more 
severe shortages. We responded by starting the Mark & Huldah 
Buntain School of Nursing just 4 years ago. Today over 120 
students are pursuing a career in nursing at Northwest College.
    The Federal Government's partnership in this important 
endeavor is twofold. First off, these students, of course, 
benefit from Federal financial aid programs, including the Pell 
Grant and Stafford Student Loan programs. Their eligibility for 
these vital funds allows students to study in our unique 
program.
    No. 2, through efforts spearheaded by Congressman George 
Nethercutt, Northwest College has been awarded a line item 
appropriation that will help build a nursing education and 
science facility that will enable the nursing school to grow.
    The Federal Government's partnership is, as it should be, 
based on clearly stated guidelines and goals that have nothing 
to do with our college's or our students' faith commitments. 
The Federal Government's funding is based entirely on 
eligibility verified by objective qualifications, including 
accreditation. Faith commitments neither qualify nor disqualify 
our students or institution from funding.
    We feel that our faith commitments do indeed add value. In 
the specific case of nursing, distinguished nursing educators 
from both Washington State University and the University of 
Washington have candidly told us that they envy our unique 
position. They speak of their calling to nursing. They speak of 
nursing being a career of compassion. When dealing with issues 
of life and death, they express great appreciation for the way 
our students' faith is able to undergird their professional 
skill to perform well in this career of compassion with 
excellence.
    This is just one example of an excellent partnership 
between our faith-based institution and the Federal Government.
    Your staff has asked me specifically to reflect today on 
implications of the U.S. Supreme Court's recent decision on 
Locke vs. Davey. In a seven-to-two decision handed down on 
February 25th the U.S. Supreme Court ruled against Joshua 
Davey, a 2003 honor graduate of Northwest College. The case, 
Locke vs. Davey, challenged Washington State's right to deny 
Davey a scholarship based on his pursuit of theological study.
    Clearly, we were disappointed. We have supported Josh 
throughout this process and were confident that the Supreme 
Court would uphold last fall's ruling by the 9th U.S. Circuit 
Court.
    This ruling could have dramatic ramifications, as it seems 
to allow discrimination based on religion. It appears that the 
Supreme Court is now saying to States that it is permissible to 
limit access to government programs based solely on a student's 
choice of major that could prepare that student to serve a 
local community in ministry. This is a sad day. The Court 
preferred the State's right to discriminate based on religious 
affiliation and pursuit rather than upholding a student's 
rights of free exercise of religion.
    The Ninth U.S. Circuit Court of appeals ruled in Davey's 
favor. The ruling required the Washington Education 
Coordinating Board to provide financial aid to qualified 
students who choose to study theology. The Court said the State 
statute prohibiting the payment of State financial aid to 
students pursuing degrees in theology violated the first 
amendment's religious freedom provision.
    The case arose after Joshua Davey of Spokane was declared 
ineligible for a Washington Promise scholarship. The Higher 
Education Coordinating Board has relied on State law that 
prohibits financial aid awards to students who pursue a degree 
in theology. Davey enrolled in both Business Administration and 
Pastoral Ministries at Northwest College.
    While Northwest College was never a participant in this 
suit, we have supported Josh's position. This decision by the 
Supreme Court contradicts what has been the historical position 
on this matter. Financial aid issues are directly between the 
student and the corresponding government entity, whether State 
or Federal. After receiving an award the student is free to use 
it to invest in an educational future at any accredited 
institution.
    In accordance with long-standing financial aid principles, 
government financial aid is a transaction between the 
government and the student. The college has responsibilities to 
establish accredited academic programs, assure that students 
are qualified, and that financial aid is appropriately applied 
to a student's academic pursuits.
    The Supreme Court's ruling will result in students in our 
school of ministry that include majors in youth ministry and 
children's ministry and pastoral ministry losing access to all 
financial aid provided by the State of Washington. We expect 
this to impact around 23 students next year, with lost aid 
totaling over $100,000. Under current State rules these 
students could choose any other major at our institution or any 
other accredited college or university in the State, but 
because they are pursuing a major that could help them serve a 
local community as a pastor they are being forced to forfeit 
these funds.
    We are concerned that the Supreme Court's decision will 
continue to limit study at our institution as well as others 
around the country. As I understand it, over 30 States have 
similar language in their State constitutions. As State budgets 
are cut we are concerned that students in colleges and 
universities like ours will continue to be marginalized. We 
have already seen this occur when Governor Locke exercised his 
line item veto several weeks ago, eliminating the possibility 
for students in high need vocations, including nursing, as well 
as math and science teacher education, to receive State 
assistance in a recent new initiative that has now been limited 
to State-controlled institutions.
    In closing, I'd like to acknowledge that Governor Locke was 
right all along when he identified Joshua Davey as a student of 
promise. Davey graduated from our college on May 10th of last 
year with highest academic honors, with a major in religion and 
philosophy. He was selected by students and faculty to deliver 
the student address at commencement exercises. He is now 
finishing his first year of studies in pursuit of a law degree 
at Harvard Law School. We are proud of Josh.
    Mr. Souder. Thank you.
    [The prepared statement of Mr. Neary follows:]

    [GRAPHIC] [TIFF OMITTED] T8603.053
    
    [GRAPHIC] [TIFF OMITTED] T8603.054
    
    [GRAPHIC] [TIFF OMITTED] T8603.055
    
    Mr. Souder. Next is Mr. Cal Uomoto, affiliate director of 
World Relief, Seattle, WA.
    Mr. Uomoto. Thank you, Honorable Congressman. I appreciate 
this opportunity to testify before this committee.
    My name is Cal Uomoto, and I'm here representing the 
Seattle regional office of World Relief, which is a faith-based 
human services agency that serves the needs of refugees and 
immigrants.
    A dozen years ago my wife and I welcomed our first refugee 
family into our home; actually, 24 years ago. As we introduced 
this Mien family from the Laotian Highlands to the urban ways 
of life they were fascinated with our toaster. One cord to plug 
into a wall, a place to put sliced white bread, and its sole 
function was to brown this bread on both sides. I think 
sometimes faith-based funding is like this toaster. Faith-based 
ideals go in white bread, how can we ensure they come out brown 
and not burnt?
    I've provided this committee with a comprehensive list, a 
snapshot, of World Relief Seattle-based programs. These range 
from resettlement of new refugees families from war and 
persecution overseas, to programs that help in their adjustment 
to a new life here, English As a Second Language, job 
orientation and placement, counseling over immigration forms, 
naturalization classes for the elderly.
    World Relief is actually one of the exceptions to the rule. 
World Relief has been a faith-based organization that contracts 
with the Federal Government for about 25 years. And World 
Relief is a Protestant Christian organization, and in the 
Seattle area we serve the needs of about 1,300 refugee 
immigrants yearly. Nationally we have about 25, 26 offices in 
different cities where we do the same thing. Here we partner 
with a dozen local churches, many refugee mutual assistance 
associations, and employers, two dozen employers over a three-
county area, to carry out our services.
    I do want to point out that in my testimony I have a sheet 
on the role of faith in the agency, and this actually is the 
key to understanding our particular agency, World Relief. Faith 
is the main motivating factor in working for this agency. World 
Relief employs individuals who feel a sense of God's calling to 
work with refugees and immigrants. We try to teach staff the 
knowledge of biblical principles on treatment of foreigners and 
aliens, the church's history in reaching out for immigrants, 
and the experience of Christians as refugees. I should point 
out that the largest bulk of refugees in the greater Seattle 
area are people of faith coming from the Soviet Union.
    We teach our staff to use spiritual tools. We confront many 
inhumanities and horrors perpetrated on our clients by 
governments and other persons. We feel that faith gives us the 
philosophic tools to understand the larger questions of evil 
and suffering in the world. And this approach and the common 
values shared by the staff forms the framework for the 
practices of our organization and its service to refugees.
    We also are organizationally connected in the larger sense 
to a body called the National Association of Evangelicals, and 
so we feel a kinship with various Protestant denominations 
here, the churches, colleges, etc. And we feel that our role 
here in the Seattle area is to become the bridge between the 
world of refugees and the world of the church.
    I just wanted to bring a couple of concerns that we have 
had in terms of my years as the director here, as a faith-based 
organization receiving government funding. I think the major 
concern with a faith-based organization is the need to have 
control over its hiring policy in order to safeguard its 
mission viability. We're afraid that government funding will 
encroach on the particular values that we hold, and the fact 
that hiring values held by us and our constituency, which are 
churches, denominations, etc., may not be honored or that they 
may be sued for a particular stand, and that is one of the big 
fears of faith-based organizations.
    I can just give you one example. World Relief was awarded a 
contract with a local municipality. In that year that 
particular city council passed an ordinance mandating a non-
discrimination policy regarding sexual orientation for all 
contractors, all agencies that contract with the City. This was 
not acceptable to the board of World Relief. World Relief 
Seattle gave up the contract, even though we had been working 
in the program for 2 months. We've had similar experiences. For 
many years we had a work study contract with a local 
university, and at one point it was just summarily denied, 
saying that we could not have it because we were a faith-based 
organization.
    Another issue that sometimes comes up is the lack of 
understanding between a government and its enforcing of 
programs, and the particular actions that a faith-based agency 
may have looking at it in a critical light. In my statement I 
state, ``and sometimes bat away any behavior they see as 
religious.'' I gave one example in my statement.
    At one point a World Relief office was cited because a 
refugee family requested a clergyman to accompany them to the 
airport and say a prayer of welcome for their new family that 
was arriving; their relatives. This clergyman was in a World 
Relief office during an audit and was asked by the audit staff 
what he did at the airport arrival. When he innocently related 
that he prayed for the family that arrived, the World Relief 
office was cited for, ``proselytizing the new refugee family.'' 
And the auditors would not listen to the explanation over the 
role of the clergyman, and the fact that he was not in a paid 
staff capacity for this episode, and that the request was made 
by the welcoming family here in America. That didn't seem to 
matter to the auditors.
    So we have many examples like this we could cite, but in 
conclusion I just want to thank you because I believe the role 
of this committee is important to try to understand how we do 
our services and what breadth we do them with and who we do 
them with.
    And I just want to say that the Laotian families that I've 
befriended many years ago that fled for their lives are now 
successfully resettled. They have flourished in safety. The 
parents are citizens, many kids are graduated from the 
University of Washington, they drive newer cars now than I do 
and live in larger houses. They've survived the transition here 
because of agencies like World
Relief, and they are a successful American story. So we just 
hope that you will help us to continue doing the services that 
we love to do. Thank you.
    Mr. Souder. Thank you very much.
    [The prepared statement of Mr. Uomoto follows:]

    [GRAPHIC] [TIFF OMITTED] T8603.056
    
    [GRAPHIC] [TIFF OMITTED] T8603.057
    
    [GRAPHIC] [TIFF OMITTED] T8603.058
    
    [GRAPHIC] [TIFF OMITTED] T8603.059
    
    [GRAPHIC] [TIFF OMITTED] T8603.060
    
    [GRAPHIC] [TIFF OMITTED] T8603.061
    
    [GRAPHIC] [TIFF OMITTED] T8603.062
    
    [GRAPHIC] [TIFF OMITTED] T8603.063
    
    [GRAPHIC] [TIFF OMITTED] T8603.064
    
    Mr. Souder. Next, Mr. Marc Maislen.
    Mr. Maislen. Yes.
    Mr. Souder. From the Seattle Hebrew Academy.
    Mr. Maislen. Thank you. Mr. Chairman, I am Marc Maislen, 
director of development of the Seattle Hebrew Academy.
    On behalf of the whole Seattle Hebrew Academy family I 
welcome the opportunity to speak to you today about our 
experience with the Federal Emergency Management Agency, FEMA. 
I apologize in advance that I may not be able to answer all of 
your questions, but will be happy to provide written answers to 
those questions I cannot answer.
    For the record, Seattle Hebrew Academy, or SHA, is a 
nonprofit educational organization established in 1920. We are 
an Orthodox Jewish school and primarily serve families who want 
their children to receive a high quality secular education and 
a traditional Jewish education from preschool to eighth grade. 
Our students come from all backgrounds within the Jewish 
community. The faculty and staff are from all stripes of the 
Jewish and non-Jewish community.
    SHA's main building, an historic landmark dating from 1907, 
sustained severe damage on February 28, 2001, when the 
Nisqually Earthquake, measuring 6.8 on the Richter scale, 
struck Western Washington. At the time of the earthquake 
President Bush immediately declared the quake zone a national 
disaster area. Because our main classroom and office building 
were rendered unfit, we sought assistance in reconstituting the 
building from FEMA and the Small Business Administration.
    Today with the help of many generous donors and from FEMA 
we are scheduled to move back into our newly refurbished 
building this coming fall.
    Mr. Chairman, we wish we could say that FEMA was on our 
side from day 1. Unfortunately, as I will briefly discuss, 
until President Bush issued his directive on December 12, 2002, 
FEMA's view of the Stafford Act singled out SHA as a not-for-
profit organization to be denied assistance.
    At the time of the earthquake SHA enjoyed tax exempt status 
under the Internal Revenue code. We were a candidate for 
membership in the Pacific Northwest Association of Independent 
Schools, which accepts only schools which adhere to a non-
discrimination policy, and SHA had received various forms of 
State and Federal assistance. Excuse the pun, but we thought 
everything we were doing was kosher.
    Following the procedures set out in the Code of Federal 
Regulations, which may be more complex than many sections of 
the Talmud, SHA applied for disaster relief to FEMA in 
accordance with the Stafford Act. Our application was denied on 
the basis that, as a Jewish school and in accordance with the 
tenets of our religion, we admitted only Jewish students. 
Incidentally, to our knowledge, we have never received an 
application for admission from a student not professing the 
Jewish faith as his or her religion. We appealed based on the 
existing statutes and regulations.
    In our appeal we demonstrated that FEMA had not correctly 
interpreted the Stafford Act and the regulations promulgated 
thereunder. We argued and proved that had FEMA correctly read 
the statute, Presidential leadership would not have been needed 
in order to have qualified SHA for disaster relief from FEMA. 
We are grateful to President Bush and the White House Office of 
Faith-Based Initiatives for their direct involvement and 
intervention in helping Seattle Hebrew Academy reverse FEMA's 
decision. We fully agree with the statement of then FEMA 
director, Joe Albaugh, who stated, ``Disasters don't 
discriminate, and neither should our response to them.''
    Before I close, let me add a happy postscript. Since 
President Bush's directive to FEMA not to discriminate, we have 
found FEMA to be an excellent partner. We have not been 
burdened with unneeded paperwork. Our conversations with them 
have been professional. FEMA's financial assistance to Seattle 
Hebrew Academy has been instrumental in our rebuilding efforts.
    This sums up my remarks. I appreciate the opportunity to 
give you a brief overview of our experiences, and thank you 
very much for the opportunity to speak to you today.
    Mr. Souder. Thank you very much.
    [The prepared statement of Mr. Maislen follows:]

    [GRAPHIC] [TIFF OMITTED] T8603.065
    
    [GRAPHIC] [TIFF OMITTED] T8603.066
    
    [GRAPHIC] [TIFF OMITTED] T8603.067
    
    Mr. Souder. And batting cleanup on the first panel is Mary 
Diggs-Hobson, executive director of the African Americans Reach 
and Teach Ministry here in Seattle.
    Ms. Hobson. Good morning, and thank you for the opportunity 
to present to you this morning in representing African 
Americans Reach and Teach Health Ministry, which is a faith-
based capacity-building nonprofit organization that was 
established to respond to HIV/AIDS and other major health 
issues affecting people of African descent.
    AARTH, as it's called for short, Ministry was established 
in September 2002, making us a fairly new organization, and we 
were established really to help bridge the gap in health 
disparities by providing health education and training 
capacity-building services to churches, mosques, and other 
faith-based organizations that serve people of African descent. 
AARTH promotes collaborative partnerships with churches, 
mosques, faith-and community-based organizations, health and 
social service providers, and government agencies, and in the 
packet I provided this morning there are examples of the 
different partners and collaborations that we're involved in.
    Our mission is to help build capacity of churches and 
mosques and faith-based institutions that serve people of 
African descent through education, compassionate service, 
access to resources and self-advocacy for better healthcare 
systems, and our goal in all of this are our three major goals: 
To increase healthcare awareness and knowledge among people of 
African descent, promote responsible health choices and 
practices, to build the capacity of health ministries and 
collaborations.
    And we find that our reason really for, the motivation 
behind our existence, and there are several motivating factors, 
but as reported by the Kaiser Foundation, the CDC, and the 
Washington State Health Department, disease, morbidity and 
mortality is staggering in the African American communities 
across Washington State as well as across America, and this is 
clearly evident when it comes to HIV/AIDS, where African 
Americans represented 54 percent of all of the new HIV/AIDS 
cases reported in 2002. Here in King County African Americans 
represent 6 percent of the general population and 15 percent of 
all HIV/AIDS cases.
    According to the May 2002 publication by the Washington 
State Health Department the African American community remains 
underserved and undereducated about the diseases that affect 
them, as demonstrated by the high numbers that African 
Americans experience across the board in major health issues.
    To speak a little bit about the program strategies and 
services, that we have implemented basically four strategies: 
Culturally relevant public educational trainings, where we 
develop and/or identify culturally relevant training. And our 
approach to this is really to promote the train-the-trainer 
model because our goal is to increase the number of resources 
at the grassroots level. So train-the-trainer models around 
prevention and care curriculum where we conduct classes, 
workshops, forums and conferences.
    Another strategy is to support the technical support 
systems that serve to strengthen and build infrastructure and 
skills within the faith community.
    Advocacy, where we develop strategies, implement strategies 
for engaging people of African descent in the legislative 
process to advocate for their healthcare needs, issues, 
resources, and funding at all levels.
    The fourth strategy is accessible resources, and that is to 
help us facilitate referrals, linkages and connections to 
culturally relevant appropriate social and healthcare 
resources, including traditional and alternative care as well 
as on-line services.
    In the packet you will also see a list of our major 
funders, which include Health and Human Services, Office of 
Minority Health. We are on a subcontract with the University of 
Washington, and we also receive funding from the National 
Network of Libraries of Medicine to implement our various 
program services, which include--for education and training we 
provide HIV/AIDS training for clergy, we assist churches in 
developing health ministries. We are partnering with American 
Red Cross to provide HIV/AIDS prevention certification training 
for instructors.
    We will be instituting several new courses later this year 
in the fall, in working with the University of Washington, and 
one of those courses will involve train-the-trainer sessions 
for the HIV/AIDS rapid testing. We will certify individuals to 
be instructors or certify individuals to conduct the testing, 
as well as circle of care or pastoral care teams, and these are 
pastoral and hospice care teams that work with individuals who 
are suffering from chronic illnesses.
    The other course that we'll be working with with the 
University of Washington is--we're calling The Healthy Brown 
Bag Series, where we will provide accredited clinical courses 
that will be taught by individuals from the university and 
within the community to certify and provide credits for 
professional healthcare workers who are in the faith community 
in various churches.
    The other service that we do also provide is on-line access 
to healthcare information, which we have developed an Access to 
Wellness Network, and this is where we work with churches to 
equip them with the skills to access the internet, through 
training. We provide Web site development support and also 
assistance in helping them to develop health fairs and 
workshops and conferences.
    And the benefits that we see that this is to the faith 
community as well as the greater community is that we increase 
the number of certified trainers that are in the community as 
well as in the local churches, on-line resources to health 
information in the church that's accessible by congregations as 
well as the community in which the church sits. We increase 
access to culturally relevant and sensitive resources. The 
church becomes better equipped to minister to the whole person, 
healthier and more informed congregations and communities, 
access to free local training and technical assistance and 
grant resources. The congregants become more involved in 
practical ministry, and it's an opportunity for us to greater 
demonstrate the love and grace and compassion of God.
    The challenges and barriers that we experience to delivery 
of service is the same as any new startup nonprofit 
organization, and that is in the area of capacity building and 
development for our board of directors, our staff and 
infrastructure. And when it comes to lack of access to 
unrestricted funding is another area and challenge that we are 
experiencing.
    So in your packet you will find some examples of the 
particular trainings that we offer to the community and, in 
particular, to the clergy and the faith community, and I might 
add that we also offer the same services to other community-
based organizations as well.
    Thank you for the opportunity to present.
    Mr. Souder. Thank you.
    [The prepared statement of Ms. Diggs Hobson follows:]

    [GRAPHIC] [TIFF OMITTED] T8603.068
    
    [GRAPHIC] [TIFF OMITTED] T8603.069
    
    [GRAPHIC] [TIFF OMITTED] T8603.070
    
    [GRAPHIC] [TIFF OMITTED] T8603.071
    
    [GRAPHIC] [TIFF OMITTED] T8603.072
    
    [GRAPHIC] [TIFF OMITTED] T8603.073
    
    [GRAPHIC] [TIFF OMITTED] T8603.074
    
    [GRAPHIC] [TIFF OMITTED] T8603.075
    
    [GRAPHIC] [TIFF OMITTED] T8603.076
    
    [GRAPHIC] [TIFF OMITTED] T8603.077
    
    [GRAPHIC] [TIFF OMITTED] T8603.078
    
    [GRAPHIC] [TIFF OMITTED] T8603.079
    
    [GRAPHIC] [TIFF OMITTED] T8603.080
    
    [GRAPHIC] [TIFF OMITTED] T8603.081
    
    [GRAPHIC] [TIFF OMITTED] T8603.082
    
    [GRAPHIC] [TIFF OMITTED] T8603.084
    
    [GRAPHIC] [TIFF OMITTED] T8603.085
    
    [GRAPHIC] [TIFF OMITTED] T8603.086
    
    Mr. Souder. I'm going to do the questioning in kind of 
reverse order. Let me see, you said you provided materials on 
the funding. Is that in this packet?
    Ms. Hobson. It's in the packet.
    Mr. Souder. Well, let me just ask you a couple questions.
    Ms. Hobson. OK.
    Mr. Souder. If I can understand kind of the basic 
structure, was this started by a group of churches? Was this 
started by a group of individuals?
    Ms. Hobson. This was started by a group of individuals, 
including myself and a retired physician, and we were both 
members of the faith community, and the organization was 
started in September 2002. And one of the major factors 
motivating this organization was the tremendous increase in the 
numbers for HIV/AIDS among African Americans and the lack of 
knowledge within the community, especially within the faith 
community, the African American faith community, about HIV/AIDS 
and the impact it is having among the people.
    Mr. Souder. And you said you provided the materials, but 
we're scrambling about. How much of that did you say came from 
the Federal Government, how much from other funding sources?
    Ms. Hobson. OK. We are on subcontract with the University 
of Washington, which receives funding from Health and Human 
Services, Office of Minority Health, and that funding supports 
our education and training for prevention, early intervention 
and care, and that represents about 60 percent of our budget.
    Mr. Souder. And do you raise private contributions as well, 
or foundations, or from the churches themselves?
    Ms. Hobson. That is our goal. We are working toward that. 
We haven't had a whole lot of success on that as of yet, but 
much of our funding comes through grant sources, and the 
intention is to diversify that, our funding stream. And we're 
working on individual as well as corporate donors, and 
corporate donors including churches and other faith 
organizations as well as secular.
    Mr. Souder. You mentioned in the materials here that your 
ministry has trained seven individuals, and you mentioned 
people, Sudanese, Zimbabwean, Kenyan, and others. Do you have a 
fairly significant African immigrant community here, or is it 
mostly kind of native to the area for the last extended period 
of time?
    Ms. Hobson. Cal can also speak to this, but there is a 
fairly large African immigrant community here, and we've 
actually, we have trained 24, or certified 24 prevention 
instructors,and among those do include Sudanese, Kenyan, 
Zimbabwean individuals from those immigrant communities as 
well.
    Mr. Souder. Mr. Uomoto, do you have any idea what the 
population is?
    Mr. Uomoto. I don't know the exact population in terms of 
the African population here. They are becoming the larger--a 
growing share of the refugee population here. In the city of 
Seattle, where you sit, basically the last census showed about 
one in every 15 to 17 percent, so one in every six people or 
so, are foreign born. So I don't know if that helps or not.
    Mr. Souder. And is the bulk of that 6 percent of the 
population is African American, a higher percentage Asian 
American; is that what you're saying.
    Mr. Uomoto. Yes.
    Ms. Hobson. Yes.
    Mr. Souder. Which is different than a lot of cities. This 
is the only city in which we're doing a hearing where that 
would be true.
    Ms. Hobson. Yes. The African American population for King 
County has actually decreased over the past decade.
    Mr. Souder. And have you seen a fairly steady problem 
related to HIV and AIDS, or has it been increasing.
    Ms. Hobson. The problem is that just as it's reflected 
across the country, that the numbers are increasing among 
African Americans, especially for women and for teens. And so 
that is another reason for the effort to get the churches more 
involved, the religious organizations more involved. Because 
African Americans as well as Africans are, I want to say, 
spiritually centered, and the source of resources, place where 
people go to seek support is typically to the faith community, 
to their particular faith communities, whether they be Muslim 
or Christian. And so we are putting forth the effort to 
increase the capacity around HIV/AIDS among those religious 
organizations so that they can better serve their congregations 
as well as service to the neighborhood where the church does 
sit.
    Mr. Souder. So you're not a specifically Christian 
organization; you would have all faiths included.
    Ms. Hobson. Our organization is a faith-based organization 
coming from a Christian perspective. I am an ordained minister 
myself, but we believe that this disease does not discriminate 
based on race, color, or economic status or any of those 
things. There's no boundary to HIV/AIDS, and so we incorporate 
other faiths outside of just the Christian faith.
    Mr. Souder. Well, one of the things we try to sort out, 
because we have a wide variety of different types of groups, is 
that there are many people who are Christian and Muslim who 
work at the Welfare Department as well. The question is, is 
your mission statement specifically directed toward a defined 
faith? If it's all-inclusive then it really----
    Ms. Hobson. No. It's all-inclusive of the faith, the faith 
of the larger definition. So it's not just Christian.
    Mr. Souder. And what would be different in your hiring 
practices than a health organization that was directly 
government.
    Ms. Hobson. The difference would be because we are a faith-
based organization, we, in terms of our hiring, we look at 
hiring people of like mind, of like value, and of like beliefs.
    Mr. Souder. So what would be some of those type of things? 
In other words, in trying to sort through this, because these 
are the fine lines we're trying to sort through as we draft the 
laws, because common profession of beliefs is one of the 
criteria, for example, in Planned Parenthood; they don't 
particularly want to hire somebody who's pro life. An NRA group 
doesn't necessarily want somebody who wants to ban guns on 
their staff. But what is the mission statement? We also have 
restrictions on what can be done with proselytizing and how 
much you can have an overt statement of faith.
    So with direct government funds, I'm trying to sort through 
whether it's a works-oriented side then it's really no 
different than a government agency. Because presumably if 
you're going to go to work in juvenile justice or in healthcare 
for a government agency you're going to believe the statement 
of faith that you're there in the broad sense of the works, 
that you're there to help somebody who is hurting, or you 
shouldn't be working for the government either.
    Ms. Hobson. Well, just to read our mission statement, our 
mission statement is that we are here to help build the 
capacity of churches, mosques, and faith-based institutions 
that serve people of African descent through education, 
compassionate service, and access to resources and self-
advocacy for better healthcare systems.
    And in that, as far as what we believe about that, is that 
in terms of hiring people, we really embrace people that 
embrace love for others, compassion for others, and who believe 
in God.
    Mr. Souder. So would you hire an atheist?
    Ms. Hobson. No.
    Mr. Souder. One of the things we're trying to sort through, 
because in the delivery system we pretty much have agreement 
among those who even oppose the Faith-Based Initiative that 
government funds can be used to train in the sense of what 
you're trying to do is to train people or to tap people inside 
the churches. Then there will be questions as to what can be 
funded with the people who have been trained, and how much that 
has to come from private foundation and how much that has to 
come from government, whether it's a separate organization or 
part of the church directly. And I was trying to sort through, 
because you have a slightly different organizational structure, 
heavily dependent at this point on government grants, but 
you're working with the churches as a delivery system. Do you 
get volunteers then in those churches then to implement the 
program, or how does that work?
    Ms. Hobson. We do have volunteers, and our approach is the 
train-the-trainer model to certify individuals to be trained, 
those individuals become volunteers to the organization as well 
as, you know, available to their congregations.
    Mr. Souder. Well, I thank you for your work because I'm 
from Northeast Indiana, and in my hometown of Fort Wayne, which 
has a population of about 250,000, and the African American 
population's about 12 percent. And we've been involved in the 
minority health fairs there. Similar problems, not necessarily 
as much HIV/AIDS, but all sorts of minority health things. A 
ranking member of this subcommittee, Elijah Cummings, heads the 
Black Caucus, and one of the things we've held a number of 
hearings on in addition to the justice system is in the health 
area and trying to look at minority healthcare, so I appreciate 
your coming today and adding that testimony here to this part 
of the debate.
    Now, I think I'll just go this way through. Mr. Neary, 
thank you for coming today, and in addition to talking in 
general about your school, and a little bit about the case that 
we had heard about. We're looking at this as we wrap up and 
prepare our report and recommendations on faith-based, and 
where things might go next. And when I first heard about the 
court decision on Locke vs. Davey I became very concerned about 
what this means next. I wanted to clarify a couple of matters. 
And if you don't know the answer to this question we'll 
followup. I want to make sure you followup in detail.
    The Washington Promise scholarship, could you describe what 
that program is? Are you very familiar with it?
    Mr. Neary. Sure. The Washington Promise scholarship was 
instituted by Governor Locke specifically to provide grants to 
students who both demonstrated high ability and high need. So 
it was a relatively small grant, I mean, in the grand scheme of 
things--I think I do have this written down. The grant this 
year was for $1,860 per year, and in order to qualify a student 
needed to demonstrate academic ability, grade point average, 
and test scores and such, as well as a significant amount of 
financial need. So in Josh's case he qualified in both cases 
and was awarded the Promise scholarship.
    Mr. Souder. $1,860. What would that compare to a year's 
cost?
    Mr. Neary. Well, in our case the average student paying 
total tuition, room and board, a residential student would be 
paying about $20,000 a year. So less than 10 percent.
    Mr. Souder. And do you know whether there are any Federal 
funds mixed in this? Does this have anything to do with GEAR-
UP?
    Mr. Neary. It does not. This is a Washington State----
    Mr. Souder. Straight?
    Mr. Neary. Straight.
    Mr. Souder. Are you 100 percent confident of that?
    Mr. Neary. No. Double-check that.
    Mr. Souder. We'll check, because in Indiana we have a 
variation that they've named after Indiana that actually has 
GEAR-UP dollars, and what I want to know is if this has GEAR-UP 
dollars in it, which are targeted for kids with promise, very 
similar name in different States, but if that's got Federal 
dollars in it they have a different precedent here in what 
precedent they set. If they're State dollars, then you get into 
a State-Federal relationship, which is a slightly different 
variation.
    Have you looked at or have you studied the actual Court 
ruling much at this point? I think we're having testimony at 
some point, or we're going to get from some Washington experts 
who take the decision apart in particular.
    Mr. Neary. Sure.
    Mr. Souder. But do you believe or have you heard anybody 
who talked with you about whether this could threaten students 
who are taking theology courses as part of a nursing 
scholarship? For example, if they take a theology course, none 
of the grant money could be applied to that?
    Mr. Neary. Yeah, that's part of our concern right now. In 
our case, I mean, each of our 1,200 students have Bible and 
theology courses embedded into their program. In the case of a 
nursing student, for example, it would be 16 units, so it's not 
a huge part of the program, but it's certainly part of the 
program and it's part of the thread of the institution. For 
example, we require our students to attend chapel service three 
times a week. So there are specific faith-based curricular and 
co-curricular components of the program.
    There hasn't been any indication so far that in our case 
Washington State-funded financial aid is up for grabs for these 
students. The specifics of the case were along the lines of 
vocational preparation for ministry. So I don't think that 
students outside of our school of ministry and our organization 
are in danger yet, but we're concerned.
    Mr. Souder. Yeah, it's unclear to me what the 
differentiation is between taking a theology course and being a 
theology student. Do you train any chaplains?
    Mr. Neary. We do. Typically chaplaincy requires a master's 
degree. So the students in our course of study, we don't have a 
graduate theology program, so typically to qualify for 
chaplaincy they'd be moving on to seminary, for example, to 
receive a master's degree.
    Mr. Souder. In your opinion, would this court ruling say 
that Washington funds could not be used for chaplaincy.
    Mr. Neary. Oh, certainly.
    Mr. Souder. We're going to probably pursue this more in the 
next Congress because this is potentially a huge change. You 
said you understand that 30 States have similar language?
    Mr. Neary. Yeah, the catch-phrase is these Blaine 
amendments. As I understand it, the Blaine amendments were 
really put into State constitutions, and you can see them, if 
you were to look at a map with the States that have Blaine 
amendments or Blaine amendment-like language in their 
constitutions, it's all the western States. As State 
constitutions were being put into place these Blaine amendments 
were showing up, and as I understand it, it was really a move 
in fear of the Catholic church using State money to train 
clergy. So I understand the problem, or I understand the 
motivation behind all of it, I suppose, but as I understand it, 
there are about 30 States that have this sort of Blaine 
amendment language. In many of those States, it's the same kind 
of language that's in the Washington State Constitution.
    Mr. Souder. The big concern here is the slippery slope, 
which of course is occurring in every other category. There's 
no reason to believe it won't occur here, although this may be 
very interesting to sort through whether this is mostly a 
State's rights ruling or a religious-based ruling. It also may 
give us some clues as to the whole faith-based program, which 
is, by the way, going to be court tested. But it's decisions 
like this that give us a hint of where the court's going.
    Mr. Neary. In my reading of the ruling it was cast very 
much in the State's rights vein.
    Mr. Souder. Did Kennedy or O'Connor make any major 
statements on the ruling?
    Mr. Neary. No.
    Mr. Souder. They're the two that are undecided.
    It's absolutely clear in areas like nursing, that we have 
these huge shortages around the country. I've said this at a 
number of hearings, but really the first faith-based funding 
efforts in the United States outside of the International World 
Relief area were with HIV/AIDS, because the only people who 
initially in the early 1980's would apply for any HUD grants 
were Christians.
    Mr. Neary. Sure.
    Mr. Souder. Because other people thought if they caught 
AIDS they would die, and they would catch it. So the government 
wasn't asking questions whether it was a faith-based 
organization, whether they were going to pray with the 
individual because, quite frankly, nobody else would do it. It 
is a similar situation with homeless.
    Mr. Neary. Modern day lepers, essentially.
    Mr. Souder. Yeah. And when you start to expand into 
categories which have led into drug treatment, then you're now 
against competition that wants the same clientele. Or when you 
deal with a poverty program or other programs where there are 
existing organizations that want to do it or are providing the 
services, that's where we've really gotten into the faith-based 
argument. And now it's going backward the other direction into 
things that historically hadn't been impacted.
    But nursing is one of the huge shortages in the United 
States and all over the world, and if we don't keep faith-based 
organizations involved, where people come in because of their 
motivation, it's unclear how we're going to serve the people 
who have health problems in the United States.
    Mr. Neary. As I try to look into the crystal ball, that's 
my big concern, the idea of competition for funds. Down the 
road, as States begin to shrink budgets, my fear is that the 
faith-based education institutions, in our case, will be the 
first ones on the chopping block as they're trying to figure 
out what to do with smaller pools of money.
    Mr. Souder. OK. It's not too hard to see how this doesn't 
go from grant to loan, so it's just starting to happen with 
some tax matters.
    Mr. Uomoto. Did I say that correctly? Close?
    Mr. Uomoto. Close.
    Mr. Souder. I apologize. I'm used to being called 
``Suder,'' not Souder, so it happens more than not.
    Your organization is part of World Relief International, is 
that correct?
    Mr. Uomoto. That's correct.
    Mr. Souder. And most of those efforts are targeted outside 
the United States. How much is inside the United States?
    Mr. Uomoto. The agency has both an international component 
and a domestic component. I belong to the domestic side.
    Mr. Souder. And how much would you say of World Relief is 
domestic side? 20 percent? Roughly.
    Mr. Uomoto. No, it's a larger percentage, I believe. I 
believe it's something like 60 percent.
    Mr. Souder. So it's more domestic-oriented than it is 
international?
    Mr. Uomoto. But you can--right. That's one thing I will 
have to check.
    Mr. Souder. Will you get that information to us?
    Mr. Uomoto. Yes. That will be easier.
    Mr. Souder. And you said you've been doing this for how 
long in Seattle?
    Mr. Uomoto. I've been in Seattle with World Relief for 15 
years, since 1989.
    Mr. Souder. And how long has Seattle had a World Relief 
organization.
    Mr. Uomoto. Since 1979.
    Mr. Souder. And you said there has always been some 
government funding involved in the organization?
    Mr. Uomoto. Yes. From the very beginning, the entire 
Department of State Refugee Resettlement Program has been 
subcontracting with faith-based organizations. So there are 
about a dozen what we call ``volies,'' or voluntary agencies, 
so World Relief is one, Church World Service, Jewish Family 
Services, Catholic Community Services, Lutheran Refugee Program 
are all a part of the subcontractors.
    Mr. Souder. In refugee resettlement, how many nonfaith-
based organizations are involved in refugee resettlement in 
this area?
    Mr. Uomoto. In this area there are, specifically by 
constitution, I would say one, which would be International 
Rescue Committee. They brought Einstein from Nazi Germany in 
the 1930's.
    Mr. Souder. So most of them are faith-based, is my 
understanding?
    Mr. Uomoto. Yes.
    Mr. Souder. Because my impression in my hometown area, we 
have very, very large relief organizations, and have had a huge 
and diverse influx of immigrant populations. Almost all that is 
done is done by Lutheran Social Services, Catholic Social 
Services, Mennonite Relief, large faith-based organizations, 
and the government actually contracts to those organizations 
because they don't have much staff or much language ability to 
deal with it if they wouldn't work with the faith-based 
organizations. If suddenly the faith-based organizations were 
pulled out, what would happen in Seattle?
    Mr. Uomoto. Well, like I said, in Seattle there's really 
only one nonsectarian organization, International Rescue 
Committee. Just to give you a comparison, in terms of the 
actual numbers of persons we resettle, World Relief is the 
largest in the State by far. Our organization probably 
resettles this year maybe 900. This is a low year for us. I 
would say IRC resettles probably 350 or 400 in a year. We can 
get those figures to you very easily if you're interested.
    Mr. Souder. So if you did roughly 900 resettlements, if you 
can provide some of that data to us. But for discussion 
purposes, because the number doesn't really matter as much, 
because I'm trying to get ballpark range. But I would like to 
have the actual numbers for the record. How much of the cost of 
that resettlement is paid by the Federal Government and how 
much through foundations, private donations, etc.? Two-thirds 
to one-third?
    Mr. Uomoto. Of the actual resettlement?
    Mr. Souder. Yes.
    Mr. Uomoto. Of the actual resettlement, probably upwards of 
90 percent, 93 percent.
    Mr. Souder. Is funded by the government?
    Mr. Uomoto. Funded by the government.
    Mr. Souder. So an individual----
    Mr. Uomoto. That does include also direct grants to the 
refugees themselves that are pass-throughs.
    Mr. Souder. I don't think we've had any testimony on 
refugee resettlement on any of our hearings yet, so I want to 
ask a couple of basic questions. If somebody's coming in from 
Laos, can you kind of walk through the process? What are the 
costs involved in a refugee's resettlement in that type of 
case? There's the paperwork processing prior; usually they're 
somewhere in a refugee camp overseas. So all the paperwork has 
to be processed in terms of flight arrangements, finding a 
sponsor here on this side, etc. Once they come here, we have 
the responsibility from the time they get off the plane and put 
them with someone to live with, arrange for food, clothing, 
everything, and then permanent housing, and eventually we need 
to link them to social services here, the social security, 
health screening, English As a Second Language programs, etc. 
And down the road, immigration services, and 5 years down the 
road naturalization. So that would be the basic path.
    Mr. Souder. So in the costs related to this Laotian 
immigrant, a lot of what you just said was staffing cost for 
World Relief.
    Mr. Uomoto. Yes, that's correct.
    Mr. Souder. And of your dollars for your staffing cost, how 
much of that comes from the Federal Government?
    Mr. Uomoto. Oh, I would say probably 90 percent or greater.
    Mr. Souder. So 90 percent of World Relief's dollars in 
Seattle are Federal grants to you?
    Mr. Uomoto. Yes.
    Mr. Souder. To implement?
    And then when you place the individuals in housing do they 
get Federal dollars for that housing, or are you privately 
placing them through a church, or how are you doing it?
    Mr. Uomoto. No. OK, this does become a little bit 
complicated because when I am saying over 90 percent, it's 
true, because that's our basic--the way we understand our 
finances, but we say public, which includes State and Federal. 
Now, in this State the Federal Government gives funds, block 
grant funds, to Department of Social & Health Services, who 
then would pay--they don't pay for the refugees' rent, but they 
give them a certain grant amount depending on the size of the 
family. So yes, I guess that would also be Federal, though it 
comes from the State. So that portion comes from the Federal 
Government also. Food stamps, medical, that type of thing.
    Mr. Souder. That's the connection to social services.
    Mr. Uomoto. Yes.
    Mr. Souder. Do you have specific churches you work with to 
place people in homes or in jobs, or dp are you predominantly 
work with the refugee, to get them here.
    Mr. Uomoto. Well, on any given day, like right now, we 
would have probably a dozen churches we're working with. But 
just to give you some sense of interaction, the first year I 
was at World Relief I had spoken to 50 churches, meaning, 
please help, please sponsor, please host a refugee family. We 
don't do that much anymore because the population has shifted, 
but we interact quite a bit with churches. They are volunteers, 
they are interns, etc., they are host families.
    Mr. Souder. Because if 90 percent of your dollars are 
coming from the Federal Government and then you're connecting 
to the social service agency, what is the reason that the 
government wouldn't have their own agency to do this? What are 
you saving the government by being a private organization?
    Mr. Uomoto. In the beginning of refugee resettlement, after 
the Southeast Asian War, the government did do this through the 
military; they took everybody on aircraft carriers, took them 
to camp Pendleton, trained them for civilian service, and found 
they didn't do such a great job of it. So they turned around 
and contracted with the different private national agencies, of 
which World Relief is one. And so far, as far as I understand 
it, in terms of the outcomes mandated by the government, 
they've been very satisfied.
    We have a list of outcomes that we're required to produce 
in terms of did they get temporary housing, did they get 
permanent housing, did they get a social service number, did 
they get linked to the Department of Social and Health 
Services, did they get a grant, how much did they get? So we 
have to produce reports back to the Department of State, and 
it's the same for all the voluntary agencies in this program.
    Mr. Souder. Let me ask about a couple of cases that you 
referred to. On the prayer with the family that was coming in, 
would the pastor have prayed with them if they hadn't asked for 
a prayer?
    Mr. Uomoto. No. He probably wouldn't even have gone to the 
airport, since he turned out to be a friend of the family. The 
family requested that he go with them to the airport, etc.
    Mr. Souder. But basically you don't do any preaching or 
praying unless an individual asks? And you also said he wasn't 
a staffer?
    Mr. Uomoto. He wasn't a staffer at this time, no. He was at 
some point staff of World Relief, but not at this time.
    Mr. Souder. Is there anything that you do that would be 
classified as proselytizing?
    Mr. Uomoto. No.
    Mr. Souder. So the main concern you would have would be 
hiring practices.
    Mr. Uomoto. Yes.
    Mr. Souder. Because it's clear, by the way, that you can't 
proselytize with government dollars.
    Mr. Uomoto. We understand that.
    Mr. Souder. But many Christian organizations don't, and 
it's ultimately going to become a big stumbling block in many 
of the grants administration has given, and in the course 
they're going to eventually rule that if you're going to have a 
prayer you're going to have to separate. Now, what's 
interesting is if an individual asks for it and you provide 
diversity of prayer, in other words, if's a Jewish individual, 
a Muslim individual or Buddhist individual, that they have 
access to that. Otherwise probably that could be arranged 
separately from the refugee activities and they could say, 
``Look, why don't we do this later?''
    I mean, it doesn't necessarily have to be part of providing 
the food, but that is a tough concept we're working through. If 
it's a voucher, then there's more flexibility. If it's a direct 
grant, that's why I was trying to sort through your funding 
procedure. If the individual gets a voucher, then they can take 
it to a faith-based organization that might have prayer with a 
meal, but if it's the only provider in the area, or the 
dominant provider, then we're on different kinds of rules.
    We may have some qualifying, additional questions with 
that, but your organization is unusual here because of the 
evolution of your interrelationship with the Federal 
Government.
    Do you have anything else you want to add?
    Mr. Uomoto. Perhaps the exploration of the role of the 
faith community. In other words, we provide all our services to 
all refugees. We've had, you know, Somali Muslims, Iraqi 
Muslims, Burmese, Buddhists, etc. We provide them with all the 
same services. In terms of our staffing, though, we do try to 
recruit staffing for people who match our vision statement, and 
to have a faith component in terms of service that is a 
motivating factor for staff work.
    We also work with a large number of church-based groups in 
terms of volunteers, so they volunteer with us. We have 
volunteer coordinators, etc. So that's where mainly the faith 
community comes in, in terms of the multiplication of Federal 
dollars, the services that they provide. We see that the number 
of dollars that the government gives us to do actually the work 
that we're mandated to do is very tight.
    So in terms of extra friendships, extracurricular 
friendships, gifts in kind given to the refugee families, for 
instance, I had a family at my house a week ago. They just 
moved out. They're from Armenia, came through Moscow, a family 
of four. They moved basically to an empty apartment. A church 
basically furnished it, couches, tables, chairs, etc. So all 
that gift in kind is really the multiplier factor that we bring 
to the Federal Government.
    Mr. Souder. And that's what would be helpful to have a 
little bit more of a sense of how much that is. If 90 percent 
of the basic costs come from the Federal Government, I'm trying 
to figure out how much of the leveraging that is. One argument 
could be, ``Oh, well, why doesn't the Federal Government just 
do this if they're providing the 90 percent? What are we 
getting out of it? Would some people not take the pay level 
that you're offering? Would they not do the extracurricular 
with it? Would they not line up the churches to give the 
furniture? What exactly is the added value?'' Because the 
argument here is, if you're not leveraging funds then you can 
make a pretty fair secular argument that it isn't worth, not 
from my point of view, but from some, that it isn't worth the 
dollars. So thank you. If you can provide a little bit more of 
that information.
    Mr. Maislen, you said very openly in your testimony that we 
may need to go to written questions, but let me see if I 
understand some of the basics so we can elaborate. It was a 
little confusing to me, is this a school from preschool to 
eighth grade? Is that the thrust of it?
    Mr. Maislen. That's correct.
    Mr. Souder. And it is to teach Orthodox or beyond Orthodox? 
Is the teaching itself at the school? Would it be considered an 
Orthodox school?
    Mr. Maislen. It is considered an Orthodox school, yes.
    Mr. Souder. But you said you would have people from all 
backgrounds from the Jewish community, but they know their kids 
would be going to an Orthodox school.
    Mr. Maislen. That is correct.
    Mr. Souder. And when you say you have teachers who aren't 
Orthodox, would they presumably be teaching nonreligious 
courses?
    Mr. Maislen. That is also correct, yes.
    Mr. Souder. Because you would have, say, a math teacher 
wouldn't necessarily be----
    Mr. Maislen. Right. A math teacher doesn't have to be a 
rabbi, for example.
    Mr. Souder. So that's an interesting distinction as we work 
through. Would you say that, in other types of courses, is a 
fairly standard position for Orthodox schools, or would most 
Orthodox schools want all their staff at the school to be 
Orthodox?
    Mr. Maislen. No, I think that's a pretty standard position. 
If you're splitting to secular and then your religious studies, 
let's say, you'd want the religious component to be taught by 
people that you feel would be strongest in that area. So for 
us, we would want to have a rabbi teaching the Torah, whereas 
in math or in general social studies it can be pretty much 
anybody that's certified.
    Mr. Souder. See, that's a little bit different than very 
conservative Christian organizations or even very conservative 
Muslim organizations, who view the faith spreading 
wholistically through each of the studies and wouldn't 
necessarily have that distinction, which is an interesting 
question then when they come to deprive you of a grant on your 
school on FEMA.
    Now, you're saying that when the President did his 
directive, which is an executive order, not a law, right? So 
unless we codify this in law--is there any effort to codify 
this?
    Ms. Meyer. [Inaudible.]
    Mr. Souder. Yes, but we don't have a law?
    Ms. Meyer. Not a law from Congress, no.
    Mr. Souder. Because if it's an executive order it doesn't 
have to be binding to the next administration, because the next 
administration can just come in with a pen and change the 
regulation. So we need to look at a permanent change as opposed 
to a temporary change that requires overturning in the House 
and the Senate.
    Mr. Maislen. Right.
    Mr. Souder. And post the executive order, then what 
happened? Once the president changed that, were you one of 
many, or the primary one that called attention to this change? 
Do you know?
    Mr. Maislen. I don't understand the question.
    Mr. Souder. In other words, when the President did his 
directive on September 12th, my understanding from your 
testimony is after that point your grant went forward and 
you're basically going to be able to get back into your school.
    Mr. Maislen. That's correct. Yes.
    Mr. Souder. And were you a primary reason they did the 
directive, or one of a number?
    Mr. Maislen. The Seattle Hebrew Academy?
    Mr. Souder. Yes.
    Mr. Maislen. I think we were primary, yes.
    Mr. Souder. So you were very aware that when they signed 
that on December 12th or December 13th you were probably aware 
of that, or was it something you read about 3 months later? I 
was trying to sort out whether you were the watershed to 
finalizing the thing.
    Mr. Maislen. Yes, I believe that we were.
    Mr. Souder. And prior to that point, did you know, they 
ruled you were a faith-based organization and therefore 
ineligible? Or a nonprofit? I was a little confused when you 
said are nonprofits not eligible for FEMA?
    Mr. Maislen. That I'm not so sure about. We're classified 
as nonprofit.
    Mr. Souder. Because I understood in your testimony that you 
implied that you weren't sure whether you were deprived because 
you were nonprofit.
    Mr. Maislen. I'm not exactly certain of the exact wording 
of the Stafford Act, which was what I believe the original 
denial was based on. It said FEMA's view of the Stafford Act 
singled out SHA as a not for profit, to be denied assistance. 
So I think that was the wording in that act.
    Mr. Souder. OK. Well, we'll get a little bit of a 
clarification. In today's hearing we've got a number of what I 
would term legislatively developing things. Most of what we've 
focused on around the country are more or less the traditional 
hiring practice questions, inter-relationships at the different 
types of--should you have 501(c)3's, should you go directly 
through the church.
    Today what's real unusual about this hearing is we have a 
number of different ideas of where this is heading. We have a 
couple of organizations that are mostly governments, yours is 
mostly government, or high percent government funded, working 
through churches. World Relief is a historic Christian 
organization, but heavily government funded, but then leverages 
the dollars through churches and an international arena. We 
have a case over here of the theology case, which is a brand 
new, very disturbing trend. The California case, that they 
weren't able to be here, and a FEMA case that's kind of 
unusual.
    So we wanted to get some of this into the record to say, 
OK, this is going to be a lot broader than the way we normally 
just define faith-based. I appreciate your testimony today 
because yours is a different variation, even in your hiring 
practices and your mix and your role, and yet you were still 
deprived.
    Mr. Maislen. Right.
    Mr. Souder. Which is an interesting challenge as we look at 
legislation. Well, thank you.
    Mr. Maislen. Thank you.
    Mr. Souder. Is there anything else you'd like to add for 
the record?
    Mr. Maislen. No.
    Mr. Souder. Ms. Esau, yours is very much at the core of the 
current debate, and I wanted to have some followup questions. I 
was kind of baffled in one part here of your testimony. 
SAMHSA's having you conduct trainings in drug abuse treatment?
    Ms. Esau. Capacity-building techniques and best practices 
for organizations that provide substance abuse and mental 
health services.
    Mr. Souder. Would you elaborate a little more?
    Ms. Esau. Sure. What has come to light, sort of across the 
country, through the whole Faith-Based Initiative is that many 
of the programs that are doing exceptionally good work on the 
ground, treating the symptoms, getting to the core root of 
these problems of substance abuse, mental health problems, 
addiction, they're awfully good at serving their clients and 
their folks, but they have huge gaps in their infrastructure 
and in their business practices, record keeping, evaluation 
methods. Most of these organizations have very, very little 
funding. They have a high volume of volunteers that are doing 
things for them. There's a lack of consistency in their methods 
of operation.
    And so SAMHSA has been fantastic at recognizing the need to 
help these organizations come up to speed so they cannot only 
become more efficient with their services, but that they can 
expand their services, be more effective by improving the way 
they do business every day. And so We Care Northwest and 
several other sort of intermediary organizations around the 
country now have contracts through SAMHSA to help these 
organizations improve the way they do their business.
    Mr. Souder. So you're not predominantly working with them 
on how to do drug treatment; you're working with them on how to 
structure?
    Ms. Esau. SAMHSA recognizes that the organizations in the 
church basements, the 12-step programs, those folks are the 
experts. So we let them do the job that they do best, but if we 
can, help them develop their systems.
    Mr. Souder. So are you teaching them how to do tracking, 
accountability for measurement and success stories, that type 
of thing?
    Ms. Esau. Yes, plus fundraising, long-range planning, and 
volunteer management.
    Mr. Souder. Do you have a component that does 
accountability measurement, how to do tracking of their cases?
    Ms. Esau. Yes, we do. In fact, I teach a 1-day seminar on 
evaluation, and we go through the exercise of developing a 
Logic Model. Most of the small organizations have never even 
heard that term, and yet most, certainly, Federal grants, State 
contracts, today almost all private RFPs ask for an evaluation 
tool. These folks don't have any idea what that is.
    Mr. Souder. If there's not, let me just make a statement 
here. If there's not a process of an evaluation tool, or if 
SAMHSA gives grants to groups that don't do that, they'll 
probably lose the whole program within 12 months.
    So it's very important when you're out in the grassroots--
we just did a hearing a few weeks ago with Charlie Curry, who 
is a good friend of mine and actually went to Huntington 
College in our district, his family's from there, and he did a 
lot of this in Pennsylvania when Ridge was Governor, and now 
heads SAMHSA. And we had him with NIH and ANAMA (phonetic), all 
the major groups in Washington, and then a lot of the major 
researchers in the country, and I'm about to speak again to the 
national drug treatment people at their national conference.
    And what is absolutely clear is that unless the faith-based 
community gets a better tracking method, this is going to end 
real fast. And that is one of the most important things to 
communicate, because it's counter-intuitive to allow the people 
who are helping on the street. In San Antonio we had Freddie 
Garcia with Victory Life Scholarship, which is indisputably the 
most effective, as somebody who's worked this issue for 10 
years, effective organization. But they don't do drug 
treatment. They would say, ``We change people's hearts and they 
become Christians and they're no longer on drugs.''
    But nobody can argue, including Texas, who tried to shut 
them down at a couple points, that they aren't the most 
successful team in the country. They're now down in Peru, in 
Central America, and around. But it isn't for everybody. That's 
why you have to have a voucher system, and it's unclear how we 
work through that mix.
    Pastor Rick Warren's church, the Saddleback Church, the 
Purpose Driven Life people, have a huge program right now in 
Southern California that has a different mix. And as John 
Walters at ONDCP works with the drug treatment people, how we 
do this is going to depend upon the effectiveness of this, but 
there is no dispute that at least in certain cases there are 
dramatically different results.
    At the same time, it's also true that if it isn't tracked, 
bottom line, we can't defend giving money to one Federal group 
that will require all this detail and all this paperwork, and 
then saying, except churches, and they don't have to have these 
same standards, they can go wander around, and if somebody 
feels good--we don't track them, and if a year later they're 
back over in a Federal program, telling the Federal Government 
that this church didn't followup, that isn't going to work.
    What it will amount to is they need to understand when they 
touch taxpayers' dollars there's a different accountability. 
And those of us who have advocated this flexibility aren't 
going to tolerate it either.
    We had a very good testimony in Charlotte, North Carolina, 
where a long-time developer had worked with a number of 
organizations in foundation fundraising and in management. It's 
the biggest rescue operation and turned to three other members 
of the panelists who were working with different missions and 
said, ``None of you should be head of your organization,'' and 
particularly two of them. He said, ``You shouldn't be head of 
your organization. Your heart is to help the people. You need 
to get somebody to head your organization who will do the legal 
work, who will do the fundraising and the management and the 
paperwork.'' Too often we take the people who have the heart to 
help, which is different than the administrative skill, and 
that mixing is what is causing us so many problems right now in 
faith-based.
    So is that a lot what your intermediary organization is 
trying to address?
    Ms. Esau. Precisely. And if I could draw your attention to 
my handout. No. 9 on the list there, and I apologize that these 
sections are not numbered, but No. 9 once you get there is 
numbered, it's all the way to the back.
    For the past couple of years what you were describing has 
been coming to me on almost a daily basis. I receive phone 
calls from folks not just in this State, but from all over the 
country, that say, My church has a great basement organization. 
How can we take it to the next level? How can we start making 
ourselves viable for some kind of government partnerships?
    This has come to me so often that about a year ago I 
started writing the outlines for a book. This is an excerpt 
from my book that will be released in November of this year. 
It's published by Josey-Bass, and it addresses exactly what you 
were talking about, how to bridge that gap between the feel-
good heart service that we, again, are called to administer, 
and yet separate out the very important business practices that 
need to be present in order for those programs to be 
successful. There isn't a tool like this that exists. There are 
some excellent resources that have been published by the Hudson 
Institute, and Dr. Amy Sherman is sort of the leader. I don't 
know if you're familiar with her name.
    Mr. Souder. Yeah, she was at a hearing in March.
    Ms. Esau. Yeah, she's really the guru. Dr. Stanley Carlson-
Thies has also been here in Seattle three times, in fact, right 
in this very building, to conduct a seminar for us where I 
invited State and county government officials to come in and 
join with faith-based leadership to discuss how we can blend 
our strengths. Cal was there, and several other people in this 
room were at the first one. That was 2 years ago now.
    And SAMHSA sponsored another one of those trainings here in 
March, which I hosted for them at the Seattle Center, and we 
had more than 200 folks attend that. That was strictly grant 
writing. It was a 2-day seminar on grant writing, and we 
brought in a tremendous expert in the field, and he gave folks 
a lot of tools and tips to take away, a lot of good examples of 
what a successful grant proposal looks like, what not to do. 
The trainings have been very, very successful and very well 
attended.
    And it's only through those trainings and the relationships 
that we're building on the grassroots level that I think we're 
going to see some real successes that we can point to and say, 
OK, Congressmen, you know, these are the examples. This is the 
evidence. These programs do work. They need a little help, they 
need some training, they need to tighten things up a little 
bit, but they're already doing the work.
    And I'd like to also remind you, and maybe Amy Sherman 
spoke to you about this when she testified, but in 1999 she 
conducted a survey of 9 States and 204 or 205 faith-based 
organizations and researched the methods that they used for 
meeting the needs of the poor in the communities, and she found 
only 2 cases where--out of more than 200 organizations, 2 cases 
where an individual that had been receiving service from a 
faith-based organization had requested to be moved to a secular 
organization.
    And that, of course, was one of the fears early on at the 
Federal level, was, well, if we assign clients to faith-based 
organizations, you know, we're going to run up against this 
proselytization, these--the indoctrination, you know, the 
prayer that is so scary to so many people. In more than 200 
organizations doing service over a year's time, there were only 
two individuals that asked to be moved.
    Mr. Souder. One of the things that the Democrat ranking 
member of this subcommittee, Mr. Cummings, has given me lots of 
flexibility to do at these hearings, even when there's not a 
member present, and it's because I've tried to be real honest 
and fair, and I need to point out just for the record that's 
somewhat disputed. In other words, Amy is our best researcher 
from the perspective that I come from, but I can tell you that 
is factually probably not correct. In the studies that she did 
that may be the case, but I know in my own home area of several 
who have switched, even in some of the programs that I'm 
intimately familiar with, some people just don't like the faith 
component and they switch over.
    She's our best researcher, but we need a lot more data, 
because we have very minimal data on our side compared to 
massive data, particularly people who are defending their 
current grant size, and that's why we need to have that 
pressure. I felt compelled to point that out. Otherwise I'm 
going to have objections that this is too one-sided.
    Ms. Esau. I see. I was only referring to her one study.
    Mr. Souder. And I believe that she is starting to build a 
body of research that we can start to compete with, her 
research is not necessarily undisputed. Although I still think 
it's very good and argue on her behalf, so don't misstate what 
I just said.
    What I was baffled about is you said your attorney 
general's office in Washington State isn't participating in the 
Faith-Based Initiative. In a program like SAMHSA they don't 
have an opt-out provision, do they?
    Ms. Esau. No.
    Mr. Souder. So what's happening with that? In other words, 
if it's Federal dollars they can restrict State dollars, but 
they can't restrict Federal dollars.
    Ms. Esau. That's the argument that I have raised on a 
number of occasions. I don't get a whole lot of cooperation or 
callbacks when I raise that issue.
    Mr. Souder. I think most programs do blend through, and 
that's what makes it difficult.
    Ms. Esau. You're right.
    Mr. Souder. If you can keep us posted on this variable, 
because this could become a major stumbling block as they move 
into the drug treatment area. And we may have to make it clear 
in the clause in the law that says you do not have--in other 
words, we fought a Civil War over preemption. States do not 
have a right to preempt Federal law. We are having this battle 
with so-called medicinal marijuana right now, that this is a 
very fundamental point that we had over slavery. States cannot 
say, ``We nullify a Federal law.'' There is nothing in the 
constitution that allows that.
    Now, if it's flexible in the law then a State may be able 
to do that. We may need to look at the law and see if in the 
past did we give that decision to the local State, in which 
case then we have to have the debate on the Federal level 
whether we want to allow this to happen.
    You alluded to a couple of other things, but let me make a 
couple of comments and then see how you react to this, because 
you clearly are working with a wide variety of major programs.
    I don't believe we're going to be able to sustain the 
hiring practice clause. And I'm not sure how the Court's going 
to rule. We will not be able to pass most--I must pick my words 
carefully here.
    I carried the House version of the first welfare reform 
faith-based, and then all the bills since then until the Faith-
Based Initiative, when J.C. Watts took the Republican lead on 
it and then Roy Blunt. But we have been moving these bills for 
now probably close to 6 years. Our support has declined each 
time. The last time, on the president's Faith-Based Initiative, 
I had introduced basically Congressman Mark Green of 
Wisconsin--I had to go shopping on the floor to say we were 
going to study a local waiver if there was a sexual orientation 
ordinance like was referred to by Mr. Uomoto. And the president 
did not have the votes to pass the initiative, even in the 
house. So we had to do that to say we were going to stay at the 
conference committee, so basically killed the bill.
    Because without that waiver many faith-based--I mean, you 
can do it now. If you don't have any unique statement of faith 
that impacts your hiring practices of what you do, you're 
currently eligible. In other words, if you don't have practices 
of faith you can get the government funds now. So there's no 
point to have a law when groups have been getting these funds 
for years if there's not a uniqueness.
    Now, in World Relief efforts they hadn't had the same 
enforcement that they had on the domestic side, and they didn't 
have the homeless and AIDS. So we're seeing an evolution. But I 
believe that we're pretty much, from the legislative branch, 
dead. I mean, it's not even close.
    So the administrative branch and the executive branch 
decided to implement it through executive order, because it 
didn't really matter which way you started because it's going 
in the courts. And you heard me allude to Kennedy and O'Connor, 
because they're undecided. I believe they're going to rule 
against much of what we've passed, and that they're going to 
define it tighter. So we've been working to define this more 
tightly.
    So I want to encourage you, as you're working with the 
different groups, to be very careful how you set this up, and 
don't give them false promises. My personal opinion is, I've 
watched as many groups got involved with the Federal 
Government, and I've kind of moderately switched sides on some 
of this because I'm afraid the groups are going to be sucked 
into the government, the government's going to change our laws, 
and that what I think we should have been focused on is the tax 
credit side, and the tax deduction side, but I do believe there 
are going to be training dollars. We already have worked this 
out with many of the critics of the program, that there are 
going to be training dollars.
    But what we need to look for, and as you work this through, 
given that I think the administration is committed to trying to 
expand some of the dollars, but warn your groups of the 
following: If they take Federal dollars it probably isn't going 
to hold, and they're going to have to look at hiring practice 
changes long-term, so be careful about getting the Federal 
dollars unless they're willing to make the changes.
    Second, set up firewalls from the church to the 501(c)3's 
and other groups, and also separate parts that are clearly 
overtly part of the mission versus secondary. We're going to 
get into these theology discussions. Is it pure theology, is it 
a theology course, can they set it up like his school? Because 
we can probably sustain FEMA legislation if they have a 
separation clearly in a school between theology and non-
theology. For some evangelical colleges that will be 
impossible, or probably Muslim colleges that would be 
impossible, or schools, but in some areas we can do that. So 
depending on the type of group, they just need to know what's 
coming.
    But one of the things we need to look for is how to better 
hook with foundations and how to fight this through with 
foundations as well, because there are lots of dollars, there's 
more there than there is in the Federal Government. But I 
wanted to give a warning to be careful with the dollars because 
I don't think we're going to--I think right now, from the 
conservative faith-based perspective we've been advancing the 
cause, but I think we're starting to pivot. We're going to be 
playing defense on some of the things we already have, like 
student loans and buses. We're trying to figure out some areas 
where we can expand, but we're going to be playing more defense 
because of the nature that there is some kind of false optimism 
out at the grassroots about where this is headed. But I'm 
telling you, as somebody who had to do the vote counting on the 
floor, that even in the Republican house we weren't close, 
which means that it's not likely to get more that direction 
long term.
    Do you have any comments on that?
    Ms. Esau. Well, I appreciate your being honest and candid 
with us, and that's probably the most up-to-date information 
that any of us have, but I would like you to give us your best 
guess on vouchers, because as I understand it through HHS, 
vouchers will allow the client to choose their service 
provider, and then there would be none of this nonsense. Is 
that true or not?
    Mr. Souder. In working through this, we are still working 
in a bipartisan way, which has now gotten so caught up in the 
Presidential race, probably nothing much is going to happen 
until after the next election. And it's winner take all, but 
even then it's, like, going to be so closely divided in the 
country that we'll have minimal dramatic changes to the 
supplemental. But should the leadership in the country change 
then the whole issue's dead, bottom line.
    That as a practical matter, we had worked through a 
compromise that said that if there were choices, if the 
constituent had a choice of services, then a voucher could be 
allowed, but if there wasn't a choice it ought to be dropped. I 
believe, in my reading, contrary to what some people in the 
administration are saying, that's the way the Court's going to 
rule. So if there are several people who provide job training 
in the area, several people who provide drug treatment in the 
area, why couldn't an individual have a voucher to choose? But 
to really move to a rural area, and there's only one drug 
treatment program in 200 miles, you are not going to be able to 
sustain in the Court that the only program there is faith-
based, with any religious content. You're just not going to do 
that.
    So I knocked it out of the first administration's faith-
based bill, although we have it back in Head Start, and that is 
that Head Start programs, which are mostly faith-based groups--
basically Title VII--that have religious rights of hiring and 
other things, aren't going to be able to get that in rural 
areas. I use this example all the time in my hometown of Fort 
Wayne. One of the biggest apartment complexes in this one 
section of town, it's half right now Burmese and half Bosnian, 
and if we had the nutritionsite or the Head Start site be a 
faith-based organization reflective of the community, it would 
either be Muslim or Buddhist, but in that area are a good 30 to 
40 percent Christians. How would they feel if for their 
grandmother or mom to go to the nutritionsite or to send their 
kid to the Head Start site, if it was Muslim or Buddhist? That 
we're so used to Christianity in the faith-based community, 
most of them are Christian, and so used to being the majority, 
that there was not a thought about what happens.
    In Seattle there's been a little more thought to that in 
some sections, but that shows you why there has to be firewalls 
and why there has to be choice. So I believe vouchers will be 
allowed in some programs. Welfare reform is our test. We're 
trying to move the reauthorization through, and there are 
choices in most areas, in job training, in different things. 
Drug treatment, I think we can move it. When it comes to Head 
Start, nutritionsite things, things where people aren't as 
mobile and won't go a large number of miles, in wide rural 
areas, I believe you're going to see much more limited 
applications in future laws, and the Court will definitely rule 
that direction.
    So we're winning. There have been two recent voucher 
decisions narrowly defined that give flexibility. Here's the 
layman's way to say it. If you're paying for the computer, 
that's nonsectarian. If you're paying for the software, that's 
proselytizing.
    Ms. Esau. Sure.
    Mr. Souder. So if you're paying for a building, it's 
similar to what we do, quite frankly, in Planned Parenthood. We 
can't fund through the Federal Government abortion services, 
but if Planned Parenthood has a building and on one side they 
have counseling for birth control that isn't abortion and 
another side abortion, and it's the same building, part of that 
rent can be paid, part of the facility, but it can't go 
directly to the contrary policy of the government on abortion 
counseling. In other words, fungible money is there in all 
kinds of things that we do.
    And what the faith-based community needs to work through 
and what your responsibilities are as intermediary 
organizations are to figure out what those rules are in a 
revolving and increasingly court changed market.
    But I didn't mean to get as much into that, but you all are 
at the cutting edge of a lot of this, and your organization 
particularly is one that's working with the government.
    Is there anything else you'd like to add?
    Ms. Esau. Yes, three other things. I also wanted to draw 
you attention to HB 1464, which is Item Nos. 4 and 5, actually, 
and 6, in this book. This bill was introduced twice, in the 
most recent legislative session and in the previous one. It 
failed both times. And what that bill is, you'll read--was 
designed to do was establish a liaison for faith-based and 
community grassroots organizations in each of the funding areas 
of our State social service agency, and there are seven funding 
areas. And it had absolutely no fiscal implications. It would 
be taking an existing staff person and assigning them the duty 
of being the liaison for the community groups and the faith-
based groups who wanted to inquire about submitting proposals 
to the agency. That failed twice because of the hiring 
practices issue, which is very, very disappointing for us.
    Also in the status of faith-based and community initiative 
in Washington State, which is No. 3, the third common response 
is that the order violates the anti-discrimination hiring 
practices. That's the most common response that we get when we 
try to appeal to any of our State agencies.
    But No. 2 is also important, and that's that our State 
constitution forbids us from issuing money to religious 
organizations, and as you appropriately brought up, they don't 
seem to see that by commingling the Federal dollars that--the 
CDGB funds that come to the State, they are actually violating 
the charitable choice laws. But just try and get anyone in our 
State agencies to budge on that, and they shut us down.
    I was also informed that our State contracts department 
does comply, in that they do send out the RFPs to whoever asks 
them, but they are not obligated to look at them, to read them. 
In fact, I was told by one of the lawyers in the contract 
department that they very often, if it's a new organization 
that they've never heard of, they'll just file it in the 
circular file because they're not interested in developing new 
partnerships or new contracts with outside organizations. They 
already have things working the way they like it, and that's 
the way that they're going to remain. So that's a very--we've 
got such a bottleneck here in this State. I know some States 
are a little more open, but this State has not been.
    There are lots of statistics in Item 10, which talks about 
some of the budget problems that we've had in this State. You 
can look at that at your leisure. And then, well, that's about 
all. I don't want to give you too much.
    Mr. Souder. Well, thank you. One thing I would encourage 
you, is to understand how different each of the States are and 
what the constitutional historic restrictions are and the 
difficulties of working through that. In addition to whatever 
you can do to try to change and follow through those laws, is 
to look at how they can build and supplement within that. For 
example, if you had faith-based coordinators not whose primary 
responsibility was to put the faith-based groups in 
competition, but look at how they might be added to it, then 
you have an effect.
    Because part of what happened in Indiana with 16 years of 
Democratic Governors, who wouldn't necessarily have been the 
first to jump out on the faith-based, but in fact have--though 
I'm a Republican backing the opponent to the government--got an 
A+ in faith-based in one of the three top spaces in faith-based 
initiatives. And it's because of budget pressures. We have a 
constitutional provision that says you can't have a deficit, so 
every Governor is scrambling to figure out, what am I doing 
with all these probation officers? They went from 60 kids to 
600 kids. I don't have enough for mental health, I don't have 
enough for prisons, I don't know what to do with this and that.
    So they went to the faith-based community and said, you've 
got to help us. Instead of looking at it as though they're 
competing for grants, then it's how to leverage. But the fact 
is, the church mission isn't just to try to get government 
funds. The church mission is to try to help the people, and if 
you can get alongside them, that may prove to be a more 
fruitful process than banging your head up against a 
constitutional provision, which now the Supreme Court has in 
effect upheld, at least as it applies to one category.
    That suggests to me problems, as you're moving ahead with 
saying we want part of the grant, because now you have a 
precedent, one of the court cases, depending on how and where 
they do that, but look at it as how you do the additive. 
Because the goal here is to serve the poor and help the people 
who are hurting as part of the works manifestation of faith as 
Christians, and we have to figure out how to do this in 
different areas. And you have raised some challenges here in 
Washington State that I haven't seen.
    If any of you want to submit anything else for the record 
or any other comments you can. I first appreciate your 
willingness to come today and your willingness to work in the 
area, and if you can express to the people who work with you on 
a daily basis that our belief, and really this is a bipartisan 
belief, that without the different faith communities in this 
country I don't know how we'd meet the social needs of our 
Nation.
    Thank you very much. We'll take a brief recess here so that 
the second panel can come forward.
    [Recess.]
    Mr. Souder. The subcommittee's back in order. As you heard 
earlier, we swear in all our witnesses.
    [Witnesses sworn.]
    Mr. Souder. Let the record show that each of the witnesses 
responded in the affirmative.
    Thank you for your patience as I went through all my 
questions in the first panel. Go ahead and sit down. Pastor 
Haskins needs to sit down because I feel really small when 
you're standing up.
    I thank you all for coming. We're going to start with 
Pastor Harvey Drake, executive director of the Emerald City 
Outreach Ministry. Is this your place we're at here?
    Mr. Drake. Yes, that's true.
    Mr. Souder. I look forward to hearing your testimony.

 STATEMENTS OF HARVEY DRAKE, EXECUTIVE DIRECTOR, EMERALD CITY 
 OUTREACH MINISTRY, SEATTLE, WA; PASTOR GREGG ALEX, DIRECTOR, 
EXECUTIVE DIRECTOR, THE MATT TALBOT CENTER, SEATTLE, WA; PASTOR 
DOUG WHEELER, ZION PREPARATORY ACADEMY, SEATTLE, WA; AND PASTOR 
  AARON HASKINS, EXECUTIVE DIRECTOR, COALITION FOR COMMUNITY 
              DEVELOPMENT AND RENEWAL, SEATTLE, WA

    Mr. Drake. OK. Thank you. First of all, thanks for the 
opportunity to be here to make our voices heard relative to the 
issue of faith-based organizations and the provision of 
community services. As stated, I am Harvey Drake, founder and 
president of Emerald City Outreach Ministries, and we are a 
non-profit community development corporation. I also serve as 
the senior pastor of Emerald City Bible Fellowship, both of 
which are located right here in Seattle's Rainier Valley.
    We began ECOM, as we referred to it, in 1987, and our 
purpose is very simple; it was to address issues plaguing 
families in the core of our city. And thus our vision is a 
simple one, is to be a model of what Christian community 
development is all about and how it can be done at a given 
location, because one of the uniquenesses of our organization 
is that we encourage people to live in the community that we 
serve; if they are outside, to relocate into the community and 
thus begin to address issues based on the felt needs of this 
community, not on some perception that they had from the 
outside.
    Our vision is simple, and that's building community one 
family at a time. We believe that the best way to build 
community is to build families, and so that's what we try and 
do. Because no one organization can effectively address the 
multiplicity of issues plaguing families in the Rainier Valley, 
we have elected to focus our attention on three primary areas: 
Education, leadership development and economic development.
    The overriding value of that kind of governs what we do and 
who we are, is one that we believe that development is better 
than rescue. There's always a need to help people in times of 
crises, but we believe that long-term, lasting, genuine change 
happens simply by helping people develop their capacity and the 
skills that they need to bring about change for themselves, not 
just doing things for them. So that really helps us.
    I've already mentioned that we are a grassroots 
organization and we are community based. The focus for us 
became the entire family a few years back, because in our early 
years we did a lot of work with youth, but we realized that 
greater change happens when moms and dads, and aunts and 
uncles, and grandmas and grandpas change as well. And we don't 
have time in this 5 minutes that I have to illustrate why 
that's important, but I will simply say that I've had the 
privilege of working with young men, particularly over the past 
25 years, and what we've discovered is trying to help them gain 
some new insight about living, about education, about family, 
about fatherhood, etc., would in many cases be trumped by what 
they saw at home, which was very different. And so it became 
important to us, or obvious to us that it was necessary to 
really begin to look at the entire family unit, so that's how 
we go about our work.
    So with the time allotted, let me just simply kind of 
outline some of the things that we've been engaged in in our 
brief 17-year history. If I were to take them one at a time in 
terms of education, one of the things that we've always tried 
to do is to realize that in this community, and it's a proven 
fact based on statistics that the Gates Foundation came up with 
and our local county of King here, is that 48 percent of all 
African American young men that enter the ninth grade don't 
make it to twelfth grade graduation. 40 to 70 percent of 
Hispanics that enter that grade don't make it.
    And because of that troubling fact we have been committed 
to supplemental education, and so we've done academic mentoring 
programs, others would call them tutoring programs, our entire 
existence. We've instituted, probably some 10 years ago, a 
summer school project that is 6 weeks in length, and addresses 
students who are scholars in grades K through eight, and we 
will probably have--with the exception of this summer because 
of some budget limitations, we have had in excess of 200 
students in each of those summers working on academics as well 
as being engaged in some life enrichment projects.
    Computer training has been a big part of what we've done as 
well, realizing that there is still a pretty huge digital 
divide, regardless of what some of our local radio 
personalities want to purport. And so it has become incumbent 
upon us as an organization, particularly focused on people of 
color, and specifically with the African American family, that 
we ensure that families have access to technology.
    In leadership we've employed a number of high school 
students, starting with their sophomore year, to give them 
practical experience in terms of work, helping them to develop 
some good work ethic, and we've also, in addition to paying 
them a weekly stipend, given them the opportunity to earn 
college scholarships, although we cannot pay for kids' full 
tuition, but we have encouraged them to move on to education, 
and have thus given them the opportunity to earn money.
    And so we've also had a staff person in the past, we don't 
have it currently, who focused solely on helping kids 
understand what they needed to get in and out of high school, 
get college applications filed and prepared, to get also grants 
and financial aid in order as well. Because we were committed 
to seeing that every family in our neighborhood or community 
understand that secondary education is not an option, it's a 
must. And so that's where we started. So we've been working 
with young people over that time.
    There are a number of other things--does that red light 
mean something? I didn't get that explanation earlier.
    Ms. Meyer. It shows the 5 minutes are up.
    Mr. Drake. What?
    Mr. Souder. But you can keep going.
    Mr. Drake. But I can keep going.
    Mr. Souder. We'll be pretty flexible with it.
    Mr. Drake. I have just begun. Of course, I'll give you a 
copy of all this so you can enter it into the record.
    But just to say, in terms of leadership, what that looks 
like for us in terms of the whole family is that there are kids 
that we're trying to help academically.
    In terms of the parents, what we're saying to parents is 
that while you may not be able to go back to school full time, 
is there something that you can do to improve your capacity? 
Maybe it's taking a class, maybe it's going to a voc-tech 
school somewhere, do something that encourages you, and then 
helping them to understand how valuable it is for them to be 
engaged in their own child's education. We are trying to help 
them realize that they are the first level educator for their 
children, and that we always invite the school system in to 
participate in that process, not in reverse.
    In terms of economic development, if you were to take a 
drive down this main thoroughfare, which is Rainier Avenue, you 
will discover that the development has begun in the north 
finally in the last 5 years or so, they've started bringing 
some commerce in the area, but the south end where we are now 
is the least developed area. And so we believe as a faith-based 
organization that we must help lead that development and that 
change, and so we work hard with the community groups that 
exist, both faith-based and secular, to talk about ways that we 
can encourage businesses to come in, but even more so, looking 
at ways that we can bring businesses to this community as well 
by developing them in partnership with others.
    And there's not an awful lot here for families to do 
outside of some of the public park department activities, and 
so we want to see that changed.
    But the more important aspect of economic development from 
our vantage point is that we really help families understand 
money: How it works, how to make it, how to save it, how to 
grow it, and that's still a deficit in the lives of many 
families that we have opportunity to work with. And so we want 
to see that changed.
    And one of the ideas that we have that's on the table now--
our building is in the permitting stage--is to, when we build a 
new facility here, is to allow a number of families to become 
small investors in that property so that the nonprofit does not 
own everything in and of itself, but rather that they give 
families an opportunity to see how investing a small amount of 
money in a project could be leveraged into more. Because the 
biggest factor that we are trying to address now is the 
transferrable wealth issue in America, because in some studies 
they will say that the income levels are getting closer between 
people of color and whites. Well, that's debatable as well. But 
the biggest factor in determining what happens futuristically 
is who has what to pass on to future generations. And so from 
our vantage point it becomes incumbent upon us to look for ways 
to really address that issue.
    So I guess there's more that could be said, but I think 
I'll halt there and let others have an opportunity to say 
something. I just want to leave with this statement, and that 
is, myself along with others here at this table and in this 
community are very committed to seeing the church community and 
the faith-based community engaged in a way that adds value to 
what happens, and not subtracts from that. And my biggest hope 
is that those in governmental agencies will begin to see us as 
allies and not enemies, as they have in the past. Thank you.
    Mr. Souder. Thank you.
    [The prepared statement of Mr. Drake follows:]

    [GRAPHIC] [TIFF OMITTED] T8603.087
    
    [GRAPHIC] [TIFF OMITTED] T8603.088
    
    [GRAPHIC] [TIFF OMITTED] T8603.089
    
    [GRAPHIC] [TIFF OMITTED] T8603.090
    
    [GRAPHIC] [TIFF OMITTED] T8603.091
    
    [GRAPHIC] [TIFF OMITTED] T8603.092
    
    [GRAPHIC] [TIFF OMITTED] T8603.093
    
    [GRAPHIC] [TIFF OMITTED] T8603.094
    
    [GRAPHIC] [TIFF OMITTED] T8603.095
    
    [GRAPHIC] [TIFF OMITTED] T8603.096
    
    [GRAPHIC] [TIFF OMITTED] T8603.097
    
    [GRAPHIC] [TIFF OMITTED] T8603.098
    
    [GRAPHIC] [TIFF OMITTED] T8603.099
    
    Mr. Souder. Next, Pastor Gregg Alex, executive director of 
the Matt Talbot Center.
    Pastor Alex. Good morning, sir. My name is Gregg Alex, and 
I am the Founder and the Director of the Matt Talbot Center.
    We are a free comprehensive clinical State standard 
treatment program in downtown Seattle, started 19 years ago. 
We're in our 20th year. We're totally private funded. We have 
been totally funded. We provide clinical services for going on 
20 years with total private funding. We have just completed 
housing that was built with State--with Federal tax credit, 
State housing trust funds, etc., but a separate issue as such, 
but I'm speaking more in line with our treatment program, and 
that's part of it, that's part of the comprehensive service 
we're able to provide.
    What our desire was, was to provide a seamless garment, a 
from womb to tomb, from the time they walk in the door, 
treatment on demand. In the clinical field it's pretty well 
been established that the real answer is one that is not either 
politically expedient or affordable, which is treatment on 
demand, to--instead of a 2, 4, 6 weeks pre-entry process for a 
person to get into treatment, where we lose a lot of people who 
by definition of the disease cannot be compliant, never make it 
to the point of receiving the service. And when they walk in 
our door it's free. It is immediate. The process begins.
    We utilize some other services, such as from the State, 
detox, which we don't run a clinical operation. We access 
detox. We also try and equip other churches and organizations 
with what we've learned in these now 19 years, and we just we 
put on an annual addictions conference.
    I sit on some committees and do some committee work for 
SAMHSA in D.C., and am engaged in writing some of the handbooks 
with them on the trends. As you know, the personal physical 
health costs of flying back and forth to the east coast to do 
this, but we're trying to spread that information and do some 
training with other folks about this.
    What we understood is that an addict, a homeless person, a 
person who has mental illness, these issues are so intricately 
bound and wound together, woven together, that as part of the 
fabric of addressing this dysfunction you've got to address all 
three levels of that.
    I also need to go on record and say that the very system 
that's asking us to now solve the problem was part of creating 
the problem, meaning the elimination of SROs, the thousands of 
units in the city of Seattle, and mirrored throughout the 
country, low income housing that was privately owned, 
unsubsidized, it was eliminated to make way for condominiums, 
business developments in downtown areas, literally eliminated, 
and created homelessness by its development. The lack of 
adequate sufficient replacement for that housing drove people 
to the streets, who at least had a place to stay.
    Then to self-medicate they began what had been perhaps a 
substance use and a substance abuse problem became a chemical 
dependency problem because they were self-medicating their 
depression, their homelessness, their inability to cope with 
living in shelters, which suddenly we were all in the business 
of. We saw the Federal Government fund excessively, not a 
solution, but a Band-Aid to homelessness, which was the 
shelters. And believe me, there's a need for it in this system, 
but the ultimate goal cannot be people being warehoused for 5, 
10, 15, 20 years. To sleep night after night, and year after 
year, and in some cases even decade after decade next to people 
who are mental--who are now beginning to be depressed secondary 
to the substance they use, if not just the living conditions, 
or the circumstances that drove them to the streets.
    This is what we're trying to deal with. There's only one 
answer. There's only one answer to this, and I say this as a 
professional opinion. I'm both a chemical dependency 
counselor--you know, this isn't just from theology study, but 
this is from--that demands that we meet the need of a person. 
But the chemical dependency understanding makes it very clear 
to me that we've got to offer treatment on demand. Anything 
short of that is a Band-Aid.
    Not only did we eliminate in this area, in this city, the 
SRO's, but we also eliminated numerous beds in treatment. We 
wiped out over 200 beds in what's known as Cedar Hills in this 
State, and the tradeoffs become the issues of public safety. So 
now in the interest of public safety we cut budgets to enhance 
police services, but we've created a greater need for police 
service on the local streets because we've now not given people 
a place to go to get well, when they're interested in getting 
well.
    You know, I'm sorry there's not enough time to talk about 
this. But this is what we're faced with, this is what I see 
walk into my door day after day. I have churches that refer 
people to us. We're trying to equip churches so they can do 
this work. In this community, right here in this building, I 
know that Pastor Drake has people that walk in all the time 
that are looking for help. They walk in the doors of our 
churches.
    In the African American community the church has been 
always the source of the answer. People have trusted the 
church. They've walked in, the families that have been hit with 
the devastation. There's been nothing we've ever seen that has 
hit this community quite like crack cocaine when it hit the 
streets, and now we're starting to see a residual effect in the 
AIDS epidemic, which we haven't even begun to see the full face 
of yet. And yet we're seeing this on the streets. We're not 
looking for Federal funds. We'll continue to do what we do, at 
least as of now, our ministry downtown.
    But if that funding is not increased so that those people 
can get the help on demand, not through some system, when 
they're clinically incapable of being compliant with 
appointments 2, 3, 4 weeks out, when they don't even have a 
place to lay their head, they don't have a way to keep record 
and track. They're only trying to get the pain that they're 
suffering off of them. And we're saying, enter the system, come 
back in 2 weeks, we'll make an appointment for you. In 2 days 
they don't know where they're going to live. In 2 hours they 
don't know where their belongings are going to be kept. You 
know, they're subject to lose everything if they're arrested 
and picked up, and so whatever records they had about where 
they're supposed to be 2 weeks out, there's just an innate 
incapacity to be compliant with those things.
    The need is for response on demand. We have this with law 
enforcement because it's a public safety issue. We have it with 
other items in society because someone's determined it's that 
critical. 85 percent of the people incarcerated, they're in 
pursuit of, are under the use of, or secondary to engagement 
with some substance. Every major dysfunction, whether it's the 
issues around child abuse, divorce, sexual abuse, pornography, 
all these issues, you'll find time and time again that the 
percentage of people engaged are involved with some substance, 
at least 50 percent or greater.
    At some point we've got to wake up and say that if we 
really want to diminish the dysfunction in our society we need 
to address the issue of the substance that's at the core of at 
least half of the dysfunction identified as a means of people 
anesthetizing their conscience, their moral responsibility, and 
their ability to make the right choice.
    Mr. Souder. Thank you.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T8603.145
    
    [GRAPHIC] [TIFF OMITTED] T8603.101
    
    Mr. Souder. Next we have Pastor Doug Wheeler of Zion 
Preparatory Academy in Seattle.
    Pastor Wheeler. Good afternoon. I basically just want to 
spend a short time explaining something that I've learned 
through the years as one of the founders of Zion Preparatory 
Academy, and that is that we found that being a faith-based 
organization, we needed to find creative ways for inclusion and 
exclusion, meaning finding a community base of support of non-
faith-based donors. That meant that we had to set up a 
structure for Zion Prep to have them feel welcome and 
comfortable enough to support a ministry in which we wanted to 
educate children from the inner city.
    Zion Prep literally started with $13.64 in the bank, and we 
weren't too sure of that because it was a check that still had 
not come through yet, so we really weren't sure of that. We 
went down to the Seattle Public School warehouse where they had 
a loading dock, where they threw out computer paper and spiral 
notebooks and textbooks that the binders were torn, and we 
climbed inside the dumpsters and retrieved material to start 
our school. We started with six children, and we put them in 
uniforms.
    The goal was to provide a choice for the inner city 
community, affordable choice. So we started our tuition at $35 
per month. We knew that was going to be a struggle, but we also 
knew that we had to make it affordable to the single mom in an 
entry level job or parent that says, I want a choice and I'm 
going to--I can afford it.
    Well, our school grew because we became very successful 
with our children, because we had this one drive: If we taught 
character, integrity, and values first, then we would educate 
the child. A lot of educators looked at us and kind of laughed 
or said that wouldn't work, it's all about test scores and your 
curriculum. And I said, Yes, it is, but not until you have an 
individual that can receive what we're teaching.
    So we made all our meals free, we provided door-to-door 
transportation, and we spent the first month, month and a half 
teaching values, character, and integrity. And like we knew, 
kids started learning. They published our test scores. People 
were amazed, and then donors started calling us. And we knew 
then, how do we include the donor base that wants to support us 
and still stay faith-based?
    Well, here's what we did. We brought in the family, the 
leadership of the school, our strong Christian people who knew 
the vision. But our hiring practices, which I heard you talk 
about, was to hire anybody that was willing to follow the 
Christian leadership. That means to show kindness, lovingness, 
love, gentleness, long-suffering, patience, and the leadership 
that was Christian-based. And when they said yes to that, we 
found that we found some incredible teachers that can function 
under that banner.
    Our school grew from those six children to over 400. Our 
donor base kept growing and growing because not only did they 
feel welcome, because we didn't pound our faith in them, what 
we believed, and are swinging our Bibles, but we began to show 
them that they can believe in us, our ``yea'' was yea and our 
``nay'' was nay, how we loved our children, how the family 
began to look at that as a center of the community to come and 
meet and talk and discuss. Politicians would come up and want 
to visit. We had people from all over the country coming to see 
what we were doing.
    And out of that we ended up with a $10 million brand new 
facility on 7.3 acres that is paid for. And this was done by 
business community leaders, including Starbucks and Costco and 
Weyerhaeuser. All these people came together and said, 
``Listen, we will build you a facility because we like what 
you're doing, OK? It will be in your name, but we'll pay for 
it.''
    We have a $2.5 million endowment, and we have to raise--
because we charge now $350 per month per family, we know they 
can't all afford it, so we need a scholarship, and we also need 
to raise $1.2 million every year to make the budget work. We've 
been in existence since 1982. By the grace of God we've made it 
each year.
    Zion Prep is a unique school because it looks for a way to 
include everybody. That's why any child that comes to that 
door, regardless of background, why you're at our door, whether 
you're suspended, kicked out, had issues at the public school, 
no matter what they were, you are accepted if there's a spot. 
No pretesting, nothing. And because of that, that's what made 
people say, ``Hey, we can support this type of ministry or 
school.''
    One of the other things that I did is I said, well, if--
people asked, ``Well, can't you duplicate what you're doing?'' 
Well, trying to keep Zion afloat was not something I could 
duplicate all around, but I began to counsel other people that 
wanted to start schools and the other people who were running 
schools. And out of that we came together early last year, and 
they said, Listen, we want to start a district called ACUA, 
Association of Christian Urban Academies.
    And these six schools came underneath ACUA to begin to 
replicate and to expand what we're doing, in Spokane, Everett, 
Tacoma, and in Seattle. We're also working with World Vision--
partnership with World Vision, a partnership with community 
development and renewal, and with our partners here, who are 
all part of that, learning centers.
    Because we are finding that kids are being suspended and 
kicked out and expelled for long periods of time, who need it 
less. They need to be in school. So we decided to set up 
learning centers where these kids can come and receive the 
education and the personal relationship, and still have that 
Christian-based foundation that I talked about. So when they're 
not in school they're in a place where their parent knows 
they're getting nurtured, they're being challenged 
educationally and academically, and that we can measure and 
evaluate our success. That's the key component.
    Now, I was listening to you. One of the three things that 
I've learned from some great businessmen who came around the 
school is, one, get great leadership. Well, I have the vision, 
and I have a dream, and I'm passionate about it, but I needed 
that business component. So I hired the best director of 
finances and COO I could afford, and I raised funds to afford 
even more to get the best, the best development directors, and 
people to surround me to keep this vision on a solid 
foundation.
    I learned that audits are very important, so I do a full 
audit every year to make sure everything is clear and in line 
and everyone knows it. Because I want the credibility of the 
school to stand with what we do with the ability of our 
children.
    So through ACUA, Association of Christian Urban Academies, 
and the learning centers, the faith-based community is making a 
big stand, I believe, in Seattle and the State on education. 
And now we're sitting together in partnership looking in 
September to launch the first inner city faith-based high 
school, with the same drive of accepting the children that the 
schools say are the worst ones. We literally are going to knock 
on the doors and say, give us the children that are causing the 
biggest problem. We will pre-test them and we will measure, and 
you'll be able to see clearly, through your standards, how 
successful we are with these kids. And we hope to grow that to 
200 students.
    So in many ways I'm seeing that the faith-based community 
can be very creative on keeping your faith-based, but providing 
services to the overall community.
    Charter schools are another issue on the table, so we have 
meetings being set up now to figure out how to take advantage 
of that. And create an educational facility that can be a 
charter. But again, figuring out creatively how the faith-based 
community can play a role in that. So that's the history of 
Zion Prep, ACUA, and the learning centers.
    Mr. Souder. Thank you.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T8603.102
    
    [GRAPHIC] [TIFF OMITTED] T8603.103
    
    Mr. Souder. And we'll now close this panel with Pastor 
Aaron Haskins, executive director of the Coalition for 
Community Development and Renewal in Seattle.
    Pastor Haskins. Thank you very much, Mr. Chairman. I'm 
honored to speak with you. I must say in my comments that you 
have just heard from three of the leaders in our urban 
community here in Seattle. They are my heroes, and it's a 
privilege to serve with them.
    I have been the Executive Director for the Coalition, as we 
like to refer to ourselves, for now almost 7 years, and it's 
been an honor and a privilege.
    Our goal is to mobilize and equip the church to bring 
wholeness and transformation to the urban core of Seattle. The 
coalition started--and I might add that Pastor Gregg Alex and 
Pastor Doug Wheeler here are the founders of the coalition--
started in 1989 with a group of six African American pastors 
who came together really to pray together and to support one 
another, and then found in that they could do some things in 
their community.
    Now, in 2004, the coalition has grown to over 123 churches 
and organizations, and we service--our focus areas are in White 
Center, West Seattle, Renton and Kent, Central Seattle and 
Rainier Valley. Our goal is really to simply come alongside the 
church, and what we believe has already been stated today, that 
the urban church is one of the greatest assets and most 
underutilized assets within the urban core. Our goal and 
mandate is simply to come alongside that church and strengthen 
her so that she can become effective in the community.
    We do this in several different ways. We've got three focus 
areas: Of course, the church, the children, and then the 
community. I'll give you one example of some things that we've 
done. In this very room--we meet twice a month, and the fourth 
Thursday is here in this very room. And we'll have a great 
diversity of pastors that will come together to fellowship and 
to talk about different issues, and also to pray and so forth. 
Of those hundred or so organizations you have Baptist, 
Lutheran, Methodist, Presbyterian, Church of God in Christ, 
independent, small, large, Hispanic, Samoan, Asian, white, 
black churches as well as you have suburban churches that also 
come. And the fellowship time becomes a convenient place for us 
to get together, to network, and to talk with one another about 
the concerns that we are facing our community. Right where 
you're standing, on Thursday we had Mary Diggs come and talk to 
us about the AIDS crisis, and many of the pastors then decided 
to join her in that effort.
    So the coalition has a set of values that we operate by, 
and of core values that we operate by, but the purpose of the 
coalition is to function as a catalyst, and that by functioning 
as a catalyst it allows us to bring together parts that are 
functioning independently, begin to look at things in a 
corporate way. So ACUA, which Pastor Wheeler referred to, is an 
initiative of the coalition.
    Last month we had a CEO leaders workshop, where over 300 
pastors convened and ministry leaders convened for practical 
leadership-based training that many of them had not been 
exposed to. And so we function on capacity building as well.
    We had an initiative that we started a number of years ago 
called Vision Youth. In the urban community upwards to 80 
percent of the pastors are bivocational, and at this time we 
found out that there were a number of pastors that did not have 
full-time staff, did not have full-time youth outreach workers, 
and with all the youth crime and issues that were going on, 
thought that it would be good to come together. And it was 
actually Pastor Tony Morris and a gentleman called J.D. Ward, 
who is now on our board, and also a businessman, Jack McMillan, 
who is the former CEO of Nordstrom, got together and formed 
what is now called Vision Youth, which simply provided $30,000 
a year stipends to churches to hire youth outreach workers, of 
which we would provide up to 800 hours a year of training for 
them to go out into the community, spend 80 percent of their 
time in the community counseling, supporting and mentoring 
youth that are in some of the most difficult areas.
    Today we have over 15 churches that are receiving Vision 
Youth grants here in Seattle. We have now partnered with World 
Vision, and World Vision now has taken this program across the 
country into nine different communities. And we are now 
providing the capacity building, the pastoral training, 
leadership development training. We have hired a Ph.D. person 
in organizational development, Dr. Elaine Hayes. We have an 
administrator who is an MBA, and our goal is to come alongside 
these churches and to provide that leadership training that 
they need and capacity building that they need.
    I want to also say that we are also partnering with various 
suburban churches. We have found that--because we receive no 
Federal money at this time. It's all privately funded. We have 
a staff of about seven people that serve the pastors and the 
community. And what we've found is, is that there are many, 
many resources that exist within the church community, and so 
through building effective partnerships we can leverage some of 
those resources. We are currently under a collaborative fund-
raising campaign that would allow us to present to the faith 
community and family foundations and secular foundations a 
vision of raising nearly $14 million a year. We're going to do 
that by--in getting church investment first.
    So we are now currently in the process of identifying up to 
10 suburban churches who will commit to $200,000 a year over 5 
years, and getting that money, which will be $2 million, 
matched by business and family foundations. And then we're 
looking also to go to the Federal Government based on what 
we're doing there, to leverage that money, so we would have the 
$14 million.
    One of the things that we are seeing here in this community 
is that without collaboration you're not going to have the kind 
of effect and impact that you want. And what the coalition 
represents is a collaborative group of individuals in churches 
and nonprofit organizations who have come together to complete 
one another and not to compete with one another. And so the 
gentlemen that you've just heard testimony from earlier have 
all made that commitment, and we're now replicating that in a 
deeper way.
    So my last comment will be that I am also a board member of 
We Care Northwest, with Ms. Jill Esau on that team, and 
associate pastor out at the City Church, which is one of the 
leading suburban churches in this community. And what we are 
trying to do is simply, as Pastor Harvey said, to bring 
transformation, and we are not interested in simply making the 
community better, but we want to see the community changed, and 
we believe that a healthy church, with healthy leaders, with 
healthy congregation, will help in that effort. Thank you.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T8603.104
    
    [GRAPHIC] [TIFF OMITTED] T8603.156
    
    Mr. Souder. Thank you.
    I think what I first want to do is clarify a couple things 
just related to a few of the ministries for the record. Then 
I've got a couple policy questions.
    Let me first ask Pastor Alex of the Matt--it's Gregg Alex--
--
    Pastor Alex. It's Gregg Alex. It's the Matt Talbot Center.
    Mr. Souder. Now, it's what.
    Pastor Alex. It's the Matt Talbot Center.
    Mr. Souder. The Matt Talbot Center. Now, are you a pastor?
    Pastor Alex. And the Matt Talbot Center is not a church. 
It's a drug and alcohol, clinical treatment center.
    Mr. Souder. Yes, I understand.
    Pastor Alex. It's a clinical treatment program, and we also 
have 50 units of housing built over the top of our facility.
    Mr. Souder. You said you've not received government 
funding?
    Pastor Alex. No, no.
    Mr. Souder. Did you for the housing?
    Pastor Alex. For the housing we did, yes. And through a 
separate----
    Mr. Souder. How many staff do you have?
    Pastor Alex. In the treatment program?
    Mr. Souder. Yes.
    Pastor Alex. In the treatment program we've got eight 
staff, and we've got a number of--we consider them staff, even 
though they're volunteers, we've got a retired mortgage banker 
or investment banker who walked in 1 day and has been there for 
2 years, teaches money classes.
    Mr. Souder. Do you get foundation money? How do you----
    Pastor Alex. We're totally private funded. We get grants, 
we take donor designated, but not United Way grants, if you 
understand what I mean. We take donor designated grants. But 
through individual donations, through fundraisers, we have an 
annual dinner, we have a golf tournament, but mostly writing 
letters and inviting people--our newsletter inviting people to 
be partners--not just partners, investors.
    Mr. Souder. Does your program have a Bible study component?
    Pastor Alex. We do. We do. And we have had--good question. 
We have spiritual services. No one is required to take those to 
get the treatment. It's a 6-month treatment program. So they 
can opt not to sit in that Bible study. We don't require that 
of a person. We've had people who have come in through our 
doors who have been Buddhist, who have been atheist, who have 
been agnostic, who have even been--one gentleman was a 
Satanist, openly avowed, and didn't want anything to do with 
what we were doing. He wanted the treatment, though. It was 
free, it was on demand, it was clinical State standard.
    You know, people want what we have. Our reputation on the 
streets is flawless because we treat people with dignity, we 
accept them. We may not choose to accept some of their 
behaviors. And they're not required to sit in the spiritual 
services we hold. But we find that most folks at some point 
want to know why we're doing what we do. But they're not 
required, and it's clearly stated as such.
    I think like others here at this table will tell you, for a 
lot of the foundations we go to, one of their stipulations, 
we're clearly aware of that, but we're outcome-based, and they 
know that. Every member of the coalition, the programs that we 
run, what we've done is held each other accountable over the 
years for what we all do. And we've basically tried to 
encourage, you know, better accounting practices, better 
accountability practices over the years, I don't know, it's 
been some 10 years, 12 years that we've all been engaged with 
one common purpose, and that's excellence and excellent 
provision of excellent services for those that walk through our 
doors.
    Mr. Souder. I'm sure you get a range of degrees of how 
messed up an individual's life is. Do you steer them toward a 
church? Do you provide that yourself? How does it function? 
Let's say that I've been through a treatment program before, as 
many have, and I come in at that point I really want to make a 
change in my life. I don't have a job. I don't have a place to 
stay. I've been physically abused, pick a couple things.
    Pastor Alex. Right.
    Mr. Souder. Now what do you do.
    Pastor Alex. No. 1, we do a triage, front end. What's your 
need, what's your most presenting problem? For most folks we 
encounter they're homeless because their addiction has driven 
them to the streets, or the calls I'll get from Doug or from 
Harvey or from any of the others, they've got somebody who has 
had to leave their home, or is on the streets, has walked in 
the church and needs a place to stay. They need treatment, but 
you've got to stabilize their living.
    We've got collaborative relationships with the CRC, a 
transitional house, that we're involved with but we also do 
such with Union Gospel Mission's inpatient program. If a person 
is so extreme that's what they have to do, we oversee, run a 
shelter for Emmanuel Lutheran Church, we operate their shelter 
for men, so we're able to provide quasi inpatient treatment on 
demand when they walk in.
    We work with the shelters to find out a couple of the 
missions so we can at least find out their commitment. If you 
can stay here for a week, and you can stay clean and sober for 
a week, and come to treatment every day we'll support you with 
whatever you need.
    Mr. Souder. Do you do drug testing?
    Pastor Alex. Oh, yeah. Providence Hospital lab does our 
UA's for us. Because we do work for the drug courts. Even 
though we're not a State licensed program, we're State 
standard, and so the drug court and some of the superior court 
judges directly refer people to us.
    But we'll end up with a, let's say a mother who's got 
children, and we've had to have some of those kids go to the 
school, where Doug is--we've had to get them in school, or 
we've referred them to some services after they're up the 
ladder for retraining, other things here at ECOM. So we'll work 
out collaboratively. Our job is to not let that person walk out 
the door without knowing where they're going to get what they 
need, but treatment on demand. It starts the moment they walk 
in the door. For many of them it's to go to detox first.
    Mr. Souder. Do you have a tracking of what's happened to 
these people long term?
    Pastor Alex. Yes, yes. Yeah. We followup with them. And 
many of them, so many of our folks will complete, even though 
our intensive outpatient program is 6 months long, many of them 
will complete a year with us, so they'll continue to do after 
care, so phase three and phase four with us.
    Mr. Souder. How long do you track?
    Pastor Alex. Well, we'll track them usually up to about a 
year, and many of them will continue to be engaged with us as 
such, but a lot of them at that point we start to refer to 
other services. So I track them in one way by walking up to 
Zion school, because many of their kids are in that school.
    Mr. Souder. Are you in close proximity?
    Pastor Wheeler. Yeah, just a bus ride away.
    Pastor Alex. Yeah, it's a bus ride. I mean, we're 
logistically accessible to each other.
    Then they'll need some training. Well, then they'll wind up 
here with Pastor Drake, with Harvey Drake in Emerald City, you 
know, with various groups, and we start to collaborate to make 
sure that what we create is a seamless garment, so that from 
womb to tomb, when they walk in the door until the time they 
finish.
    You know, Doug was in graduation the other day for one of 
our folks who we've worked with. He and his wife have closely 
worked with that person, they're in their church, you know, and 
we will follow them through pastors. Because oftentimes a 
pastor will refer someone. We don't want to steal their sheep. 
We want them to go back, we want them to stay connected to 
their family and that stable point in the community where 
they're going to have continuing care. So we in that sense 
refer them back to them, and they continue to do the care for 
them.
    You know, our church as such is for street folks. So we've 
got about 150 folks on Sunday morning, but most of them are off 
the streets. And we serve breakfast to them, we talk to them 
about their addiction. We give them what they need at that 
point. We talk about, again, I'm a clinician, so we talk, my 
wife was a director of nursing at King County detox for almost 
20 years. We have a clinical approach to what we're doing, but 
we also make sure they understand it's about making choices, 
you know, moral choices. It's not about good or bad because if 
that's what it is, it's easy to choose the bad, but it's about 
right or wrong.
    And we follow them through chaplaincy, to jail, to Western 
State Mental Hospital. So if they go into the prisons, they 
know, the biggest issue in all of this is it starts with us as 
a group, but it's the only thing that gets anybody out of their 
dysfunctions in society. Pastor Drake will tell you about the 
people he works with because he knows them. It's about their 
families. It's about relationship. Relationship is about 
accountability, and accountability is about goal setting and 
using your talents and making you accountable to fulfill the 
word that you've said about what it is you're supposed to do 
with your life and your talents and your gifts.
    Mr. Souder. Pastor Drake, first let me ask, are you part of 
the Christian Community Development Association with Reverend 
John Perkins.
    Mr. Drake. Yes, I am. That's correct, yes.
    Mr. Souder. Do you have any type of a CDC or economic 
development part of your mission, or are you looking at how to 
locate jobs to put people in? I mean, a portion of this, is it 
actual community development?
    Mr. Drake. Right. ECOM, Emerald City Outreach Ministries, 
is a separate 501(c)3 organization. We started that actually 
before we started the church that I currently serve. It's 
through that entity, the separate nonprofit entity, that we've 
had the job training and small business development, and we do 
computer training and all of our family services. We have a 
counseling center that we run in partnership with Seattle 
Pacific University's psychology department, so all of their 
doctoral candidates become clinicians for us here through our 
counseling service that serves families.
    So all the practical hands-on things that we are able to do 
are done through the separate 501(c)3, and it's a strategic 
decision because we realized the level that we wanted to 
operate on necessitated that we get funds from other sources 
besides our church. And so we have a plethora of individuals 
and churches and foundations, and some small corporate 
donations to help us operate that separate CDC, Community 
Development Corp.
    Mr. Souder. Does the Small Business Administration or the 
minority business community work with you closely? We've got 
all these microenterprise grants. Are you set up to try to help 
develop capital in this area, and do they work with you as a 
faith-based organization smoothly, or how do you interact?
    Mr. Drake. Well, up to this point we've not utilized any of 
those services, principally because of what we would consider 
the inherent intrusion on the part of the government in terms 
of what we want to do in terms of addressing the issues of 
character, integrity and values as a part of what we do. So 
we've not done that. So everything we've done has been 
privately funded.
    We've worked with a good cadre of businesses who understood 
who we were, what we were about, and made referrals to us and 
vice versa, but we've not had any involvement or support from 
the SBA, minority business departments at all.
    Mr. Souder. Working with the Federal Government can 
sometimes be like hugging a porcupine.
    Mr. Drake. Oh, yeah.
    Mr. Souder. And I appreciate your concerns. Interestingly, 
the microenterprise-type loans are vouchers, and you would 
think that would be something that when you see organizations 
like yours developing, because one of the problems, 
particularly with so many African American males coming out of 
the prison system, it's very hard to find them jobs, as you 
talked about capital development in minority areas and how the 
capital flows out. Even if your income would start to catch up, 
you wouldn't have the capital here.
    So, we have been doing these type of minority loans for 
years, but interestingly in Bangladesh, these are 
microenterprise mini loans, because often when you're starting 
a firm, you don't need $50,000 or $100,000 because you're not 
starting at that level. You might need $500, or $13.94, or was 
that 64 cents? The question is how to get started in a new 
business. I'm fascinated with this concept of Christian 
community development and how to do it in a lot of the hard 
hit, abandoned brown field areas first, to get them up and 
running. And then everybody will notice that we can get an old 
company back that employs 1,500 people again, or 10,000 people. 
Those days are probably going to be very difficult, but 
occasionally you get lucky.
    Mr. Drake. That's right.
    Mr. Souder. But the key thing is how to get somebody who 
starts with two, basically your school story.
    Mr. Drake. Sure.
    Mr. Souder [continuing]. In the manufacturing end. Because 
ultimately if you don't have the capital in the community 
you're always going to just be a place they drain out of, and 
then people who are left behind stay there.
    Mr. Drake. Exactly right.
    Mr. Souder. And often what's fascinating to listen to, and 
one of the things that's different, is that in the African 
American community the church is often the last social 
institution left standing.
    Mr. Drake. That's right. That's exactly right.
    Mr. Souder. And how to build on that and how to work with 
that was the original whole idea out of the faith-based.
    Mr. Drake. That's exactly right.
    Mr. Souder. What Bob Woodson, my friend, used to call the 
zip code test, that got sidetracked; is the money going in to 
those people who live in that zip code, and how can we 
reposition that and target it for those who are highest risk?
    Now, can you give me a little bit more of an idea then, 
what is in this building we're in today and what is the 
evolution of what you're doing here?
    Mr. Drake. Well, the building that we're in today basically 
is our world headquarters. And basically most of what we did 
prior to this building all happened outside, because we were 
moving from place to place trying to find adequate facilities 
as we were trying to build a funding base. We still as a value 
have most of what we do outside of this building.
    For instance, our community learning center is operated out 
of a public school just a mile and a half from us. Our before 
and after school program was operating out of another school 
facility about 3 or 4 miles away from us. Our early childhood 
development center operates in the new Holly, which is being 
redeveloped, which was an old government housing project, which 
has been converted, and most of the folks that used to be there 
are gone.
    But yet, still in this particular building what you will 
find here is we run a jobs program out of this, a small 
business development component out of this, our technology 
center is housed here. The college prep program that we did was 
operated out of this facility as well. Then it housed all of 
the staff that we have. Well, we're down right now to about 16 
full-time staff and about five part-time. In the past we were 
up at around 35. So we've been trying to weather this economic 
storm quite a bit. And then this building is utilized by this 
community.
    Mr. Souder. Is your building paid for?
    Mr. Drake. The building is not paid for. This building is 
actually owned and operated by the church, but we designed it 
with all of our community development stuff in mind, which is 
why it doesn't look necessarily like a church, per se. But we 
have a wide variety of community meetings that happen here 
constantly. Today is an example of what happens. Health fairs, 
technology fairs, you name it, addiction conferences, you name 
it. It has become kind of a community asset, if you will.
    Pastor Haskins. Yes.
    Mr. Drake. Which is why we are glad that we're here. So 
we're still trying to get this puppy paid for, and there are 
other things that we long to do, as I mentioned earlier, in an 
effort to lead some of the change that needs to happen on the 
southern end of Rainier Valley, that we are out and out trying 
to raise funds for.
    Mr. Souder. I'm not sure who this is best directed to, 
whether it's Pastor Haskins or Pastor Drake or either of the 
others, but have any of the churches here worked with 
homelessness? Probably where the faith-based program has been 
most active for the longest is in the homeless, but 
increasingly in HUD it was farther along when they initiated 
this to make sure that in the high risk areas where a lot of 
the public housing was, that it was done in conjunction with 
the churches doing it. Have you developed any housing with any 
of the churches or in the shelters?
    Pastor Alex. You know, one of the first initiatives we had, 
I think the one that probably forced us to go from being an 
organism to an organization, formally structuring and 
incorporating, was the development of housing. So we've 
developed housing. We've developed housing, affordable housing, 
to the point that the first few houses we developed we 
literally gave to the folks.
    Pastor Haskins. That's right.
    Pastor Alex. And we're talking about homes that are worth 
probably about $250,000, but we gave them----
    Pastor Haskins. Or more.
    Pastor Alex. Or more, yeah. And we've developed, let's see. 
We had a three-acre site. That was our last major event at 
developing, and our problem became there was we ended up with a 
community and the city negotiating with us not to build more 
than the one test house on it because they were--a lot of 
community issues going on, you know, just--from greenbelt 
issues to the new public transportation that was going to go 
through the community.
    And then some folks who directly did not want a faith-based 
group developing housing in their neighborhood, simply because 
they were afraid, following some of these various things that 
happened, that we were developing some cult, and they never 
looked into what we had done. We literally gave the houses to 
people. Sweat equity in the Habitat style of development. And 
our intention was simply to create housing.
    You know, following that we moved our primary initiatives 
to the youth work because, you know, once we realized that 
there was going to be this political issue, we were not going 
to spend our time hiring a lawyer and putting our money into 
that when we could be putting that into children. So the 
housing issues are not done, but they're on the shelf at the 
moment because we have some more pressing issues. So we did 
housing, I think about--I could stand corrected, but about 
eight or--about eight units, and a couple of multifamily 
buildings that we were involved with as well.
    Mr. Drake. Probably the powerful thing about what he just 
described is that it was done without any HUD money. It was all 
private donations that it was done. Aaron and I recently--and 
Doug, actually, had a meeting with a HUD representative 
particularly connected to kind of the Faith-Based Initiative 
stuff, to look into what we could do to expand some of our 
goals of bringing affordable housing to this community. And 
we're hoping that with the changing tide and some of the 
practical things that we do that we'll be able to attract some 
of those dollars to make some things happen here because as we 
engage ourselves in some of the community meetings--I think Dr. 
Hayes is still here, she can attest to this, is that one of the 
No. 1 issues here is affordable housing.
    A second issue is having a friendlier or better business 
environment here, getting new office space and businesses, etc. 
And so we're hoping that we can move to another level and begin 
to attract some of the dollars that are available through those 
entities.
    Pastor Alex. Can I just add one other point? You know, our 
ministry, next to--in property, separate 501(c), we just built 
50 units of clean and sober housing, $6\1/2\ million through, 
again, a separate corporation to do such, but collaboratively 
working with the--it's part of what we do. And 50 units of 
housing, five floors, it's called Traugott Terrace in downtown 
Seattle. We also have the four units of four-plex, which is 
transition, which houses eight people, which is a transitional 
housing, clean and sober. That's kind of where our housing 
direction went in this interim period as we looked to it for 
other ways to engage.
    And we're trying to equip other churches who own property 
with this knowledge of how that system works, of trying to 
change a mindset within churches and pastors who have small 
congregations, who don't have the cash-flow capacity, who 
haven't been perhaps as successful, seeing the measurable 
success, publicly acclaimed kind of success that I think many 
of the ministries involved in our core have, to show them how 
they can leverage that property and begin to move into doing 
ministry with the homeless, with the addicted, by creating 
housing on that land, but it's going to change their mindset.
    In our community the church has really been the trustee of 
the well-being historically, and that's why to this day if the 
church is not operating, and I think you've seen this in your 
travels throughout the country. If the church is not operating 
at a level, that community's not operating at a level. I think 
the success or the recovery of the community within the black 
community is based often on the engaging of the black church.
    Mr. Drake. Just two practical things I want to mention in 
terms of projects that are kind of on the drawing board. We 
have been in dialog with a group called Covenant Retirement 
Communities, which is based in Chicago, and have about 16 
pretty swank retirement communities that they've developed 
throughout the country. The nearest one to us is on Mercer 
Island, which is a pretty upscale neighborhood. But we've been 
talking with them about doing things that are tied to Medicare 
so that families in the lower and the middle income areas would 
have decent housing to progress to when they got to that age.
    And then a second thing that we've been working on is 
looking into a transitional multiunit facility for women and 
children, women particularly who are struggling with alcoholism 
as well. And those are a couple things that are on the drawing 
board. So that's why we're hoping that we can pursue this 
dialog with HUD and a few others to try and get some resources 
to make this happen.
    Mr. Souder. I want to ask this is on subject but a little 
different, but I've got all of you here, it's an opportunity to 
float something out. One of the problems we have in housing is 
that a big subsector is senior housing, which is often in the 
big high-rise housing, like the Robert Taylor homes in Chicago, 
a lot of these things just being terrorized by these thug 
gangs. And so you have the seniors who want to have a safe 
place, safety is a big concern.
    Mr. Drake. That's right.
    Mr. Souder. Then you have women and children in 
transitional housing. You have homeless, where I appreciate 
your comment that, you know, here's a flophouse, how do we not 
have a person get permanently into that? Then you referred to 
clean and sober, in other words, we're trying to get people who 
have a drug or alcohol problem, get them clean and sober, you 
do drug testing, you kick them out if they misbehave.
    One of the things that we've tried to do in some of the 
public housing was, if we put a standard in, OK, we're going to 
kick out these drug dealers and people who are in gangs. Then 
the question is, where do they go? Danny Davis, who is a member 
of this committee, Congressman Davis from Chicago, has a bill 
on prisoner housing that I'm on. I'm the lead Republican 
sponsor.
    But one of the dilemmas here is that if we put a standard 
that you need to be clean and sober, or, say, not carrying a 
gun or terrorizing a person, or if you've been picked up two 
times in the last week for terrorizing somebody you're out of 
here, to make it so that people stay there. What do we do with 
those people? I mean, is it like a drunk and messy house? What 
do we do, because if you put them on the street then you 
certainly aren't going to help them. Then, the displaced 
housing person, when you do kind of the yuppie upgrading of 
communities that you're talking about, on the one hand you're 
eliminating the crime in one sense, but you've moved it.
    What do you suggest we do with the people who won't get 
clean and sober, or who are in prison? Because they've been 
inside, at least to some degree, and now they're coming back 
out in the community, where do we put them, because there's so 
much resistance of where to go?
    Could you define that problem, which to me seems to be one 
of our core problems. It's highlighted in young to 35-year-old 
black males in particular.
    Pastor Wheeler. I would just give one point a bit. The 
transitional houses that I've developed, and I have one that 
Gregg just mentioned, it's a four-plex, I have another four-
plex, and basically right now we haven't even opened yet 
because we don't have the funds to do it, but we own the 
property. It's for people who have had the worst record. Now, 
sexual offenses and levels one and two, my insurance won't do 
me justice there. But all the rest, I have a guy that just got 
out of prison after 26 years for murder, OK?
    Working with these young men, and working with these men 
who are all African American, OK, I have certain rules. My key 
rule that they understand is if you make a mistake, but want to 
get up and clean off and move ahead, I'm still with you. One of 
the criteria I also use is that you have a 30-day separation, 
OK? In some cases you have 30 days, but you can get back in if 
you accomplish this, this, and this.
    All people want to know, as far as the ones I'm working 
with, is that if I make a mistake how do I correct it, and what 
do I have to do to get back to where I need to go? When you 
say, That's it, you're out, you're gone, then that is a period, 
OK, and they start a whole new paragraph over again. But if you 
put a comma after what you do, they have this sense of hope. 
And I tell you, they stay in contact with you. Sometimes it may 
take 2 months or 3 months, but they come back because they know 
they can. And that's the way I operate our house. And sometimes 
people go like, man, you're just being used. That's OK as long 
as they keep coming back.
    Mr. Drake. I think for me that's the biggest disparity in 
the entire process, is that government tends to look at it more 
from a programmatic perspective versus a relational 
perspective. And the fact that they keep moving, they keep 
trying to address issues that they have dubbed ``social,'' 
which are really spiritual issues. And that's what we can't 
quite figure out, and I'll explain that a little better.
    Because what we would say in those cases is that there's a 
deeper need besides maybe the alcoholism or what caused them to 
offend, so let's address that, whereas secular groups don't do 
that, they ignore that. So if they then don't comply with what 
the rules are, then they get the boot somewhere.
    And so, when you talk about, what do you do with those 
individuals, for us, we would tend to say, how do we then begin 
to address the deeper issue that caused the problem from the 
very beginning? And I can sense that you probably identify with 
some of that. But when you look at it from purely a secular 
vantage point, I think that's a really hard question to answer, 
because when you deal with a negative element and you shift--
and literally that's all we're doing, is shifting them from one 
spot to the next spot. You say, so what do you do?
    If you want to make housing for seniors safe, clean and 
sober housing for folks who are really trying to get it 
together, and you have this problem element, what do you do 
with it? Well, that's worth a study in itself.
    Pastor Alex. I----
    Mr. Souder. They go visit you?
    Pastor Alex. Well, they do, and they end up in my church 
for a season, and hopefully I get them back where they belong.
    But let me say this, that the gentlemen--we put on this 
annual addiction conference. We had folks come up from the Bay 
Area for the conference this last year, Oregon and the 
surrounding region. We deem it the theo-therapeutic or the 
theo-clinical, where we start to end this dualism and thought 
of the spiritual and the clinical, the moral and the clinical, 
that we never give up on anybody that walks into our doors. We 
give them some conditions by which they have to stay in the 
door, OK? If they're not ready yet, fine. When you're ready the 
door's open to you. We never say no.
    But it's interesting that when you relapse in a private 
setting or a government-supported treatment setting, for profit 
or a publicly supported program, you're put out. Well, you've 
just proven how bad you need the treatment. I mean, I guess I 
have a real hard time that people don't understand that. 
They're saying, Yeah, but they blew it, they're out. Well, no. 
That's when you need to sit down and restructure the program, 
because whatever you're doing for that person, one size does 
not fit all, because no one's problem is the same as someone 
else's problem. But the loss, the cost of losing that person's 
gift and talent is immeasurable. We have no idea what we've 
lost.
    And the fact that a father missing from the home is the 
common denominator for most people that are incarcerated, and 
not--we deal with men and women, but that we don't realize that 
we're now affecting the next generation, and if we won't invest 
in the restoration in this generation we can just prepare to 
build more prisons, more treatment facilities, increase the 
number of treatment beds, increase services and support for 
homelessness and mental illness.
    Because what we did was the greatest prescription for 
seeing the children end up being successful and outside of the 
welfare system and all the related systems, is to see that 
father is in the home, and to treat that father when he comes 
in not on an MPO basis, not management by--did you meet this 
objective? No. Fine--or you didn't, you're out, we're done with 
you, we've succeeded.
    Success isn't measured that way. Success is measured by 
restoration, sustained recovery, and re-establishing solid 
relationships that are going to hold people accountable. That's 
why I say about our treatment program, other ones I've talked 
to in the country, others that I've had contact with, other 
ministries that sit around this table, the reason these work is 
because we hold people accountable, which is what they want to 
do. I don't believe that it's fair to the person to say to 
them, you know, or to a group of people that they can't do 
this. And so they're not restorable.
    From a theological standpoint for us that means we deny the 
power of the resurrection. I can't do that. That's 
fundamentally what I believe. It doesn't mean that someone else 
has to believe that, but I have to believe that to go to work 
here every day. And so when I see people walk in our door I 
have to be absolutely convinced that this person walking in can 
be restored, and if I don't believe that then I might as well 
close my doors.
    Pastor Wheeler. And if we didn't believe that I wouldn't be 
sitting here today.
    Mr. Drake. That makes two of us.
    Mr. Souder. There's a huge challenge in your comment, and 
this is the big debate in accountability, which every parent 
goes through with their kids. If you don't have firm standards 
of accountability is there ever a point where you cutoff, so 
that they understand that they can't just keep coming back? At 
what point does it become a hustle?
    Pastor Alex. Well, you hold them accountable, without 
question, but you define for them the conditions. But they also 
have to have hope. Why should I stay clean and sober? To be 
unemployed? I mean, it's why we're looking at the kids we've 
got in our community that know they can make money by selling 
some drugs, and they have nothing, not even the hope of holding 
a job with any upward mobility at McDonald's anymore because if 
you walk into most McDonald's you'll see that immigrant 
populations have recognized an opportunity. So our kids are now 
not as hirable even in those circumstances, and they're saying, 
why should I stay clean and sober? Why shouldn't I be involved 
in drugs? We've got to create opportunities for them.
    That's why we figured together we could do more than we 
could do alone, which is why we stand and support each other. 
And I believe that what happens here at ECOM and what happens 
at Zion and what happens at these other places works because we 
can't do this by ourselves.
    But they've got to know when you tell them, to stay clean 
and sober, and they say, why? Why should I? Give me a reason. 
And we can give them all the ethereal reasons, all the great 
academic intellectual ones, but something tangible that relates 
to--we tell folks, if the gospel we preach doesn't change the 
condition of their living, then what use is it? And that's 
where the kids are at. Show me why I shouldn't go out and do 
this. Give me something tangible, you know. Doesn't work, I'm 
not going to do it. We've got to give them another opportunity. 
We've got to show them and stick with them until they find a 
job, show them that the family can be restored, that this will 
work.
    Pastor Wheeler. I just want to say when he talks about the 
family restored, one of the key things that I do when I bring 
my men in is I look at the areas of child support, I look at 
the areas of reconciling with their children, either by letter, 
by a card or by a phone call, and if there's an ex-wife, even a 
girlfriend that has their child, make a phone call. I restore 
driver's license.
    And because unions are very liberal about hiring workers 
and laborers and ironworkers and so forth, I work with the 
unions, contractors. W.B. Clark is one, for example. And if my 
guy's come in and I've had him for a long enough period of time 
I then call them, if they have openings they put them in 
trainings, they put them in a job. And their check comes to me, 
and I manage their budgets and how to do it, but the key thing 
is supporting your children.
    When they hear that, when they send the first check there's 
a pride that comes, you see? There's a feeling like, I'm making 
it all right. When they write that letter, that little card, 
``I'm sorry, please forgive me,'' because they can't make 
contact, those are the kind of things that make a man feel like 
a man, and once you plant that seed it's very easy to water.
    Mr. Souder. Anything else any of you want to add?
    Pastor Alex. If there's a passion, if you sense a passion 
amongst us, it's one fueled by all of us believing in what we 
all see can be done together, seeing the passion that each has 
for what they're doing, and the fact that virtually all of us 
started with nothing. None of us in this group, and the rest of 
the core of the coalition, really had anything when we started, 
and it was very easy for us to trust each other because we knew 
we believed in what we were doing, and we didn't have anything 
to do it with except what we could come up with, and we never 
gave up.
    Mr. Souder. Do you all pretty much live in the same 
neighborhoods.
    Pastor Wheeler. We've been together since seventh grade, 
and helped raise our kids together. And I'm recovered, 1980. 
There wouldn't be a Zion Prep if people like Gregg and people 
hadn't stuck with me and worked with me when I made my 
mistakes, and hung with me, and 2 years after becoming clean 
and sober we started a school. Those kind of things. That's why 
I have a lot of faith and belief in the men that come through 
that door because I know how I came through and what they can 
do.
    Mr. Souder. How much is your personal faith involved in 
this?
    Mr. Drake. I think Mr. Alex said it appropriately, in that 
our personal faith is what motivates us and drives us and gives 
us hope. Each of us probably have a story, and I--acid, 
mescaline, opium, hashish, heroin, the whole nine. Mom died at 
age 39 as a heroin addict, two-time heroin addict. And my faith 
is what brought me to a place to realize that there was 
something else in life besides what I was engaged in, and 
because of the transformation that I experienced back in 1974, 
that I then translate that to what can happen with people 
today, which is why I'm also a firm believer that I don't give 
up as easily.
    Now, don't misconstrue our desire to really welcome people, 
as saying that we don't hold people accountable. We can give 
you stories of folks we just had to say, enough is enough, this 
is the line, you know, we're done. But our faith gives us the 
capacity to hang in there with people a little longer than most 
would want us to at times. But it also shows us what can really 
happen. I mean, we're talking about change and transformation.
    Pastor Haskins. That's right.
    Mr. Drake. That's why we believe in development and not 
just rescuing people and helping people. We want to see people 
become assets versus being a liability, and that's critical to 
us, and it comes out of our faith, it comes out of our desire, 
our own experience in seeing others radically transformed. It 
can happen, we know it can happen, and we keep pushing for it, 
and so that's how my faith element impacts me.
    Mr. Souder. Well, I appreciate all your passion.
    Pastor Haskins. Yes. I'll just say this: That in all the 
debate on faith-based issues and funding and that kind of 
thing, and proselytizing and that kind of thing, and so on and 
so forth, regardless of what the Congress or you decide to do 
in terms of funding, there is much work that is happening, 
you've just heard a portion of it here, and will continue to 
happen. Do we need help? Absolutely. But we don't need help 
that will tie our hands and that will not allow us to help 
people like they need to be helped.
    Seattle is different than many other major metropolises 
that you're attending to and visiting, in that Seattle is very, 
very diverse. The African American community here is not the 
predominant ethnic group. You have many different nationalities 
here. And I believe that's why we believe that it can become a 
model for the rest of the country. Because in many of the other 
cities, which I've been a part of, Chicago and New York and 
Philly and so forth, the ethnic groups themselves don't talk to 
one another. And that's where the coalition has come in to help 
facilitate that, and we're modeling that, believing, as has 
already been said, that we can do more together than we can 
apart.
    If the government is going to play a role in coming 
alongside then it must understand and it must respect the 
church. It must understand it and it must respect the church. 
And it should come alongside it, not try to redefine it and try 
to neuter it, if you will. Excuse me for being so direct there.
    And there is much opportunity, and one of the things that I 
want to enter into the record is many of these pastors and 
leaders, because all of these pastors and most of the 
coalition, the core, have a church and they have their own 
separate 501(c)3, but many of them have made bricks without 
straw. What they are doing, many of the people on the outside 
of the community that look in and see what they're doing, could 
never do it. And they do that because of their passion and 
their commitment to see the community changed.
    And if the government is going to play a role and wants the 
church to play a role more actively, then it will have to 
respect and honor how the church does business. And one of the 
comments that I heard earlier, in earlier testimony, was the 
issue of accountability. The church does not run from 
accountability. The coalition doesn't run from accountability. 
But we're also looking at a system that will allow us to do 
what we've been called to do the way that we've been called to 
do it, with the accountability and the outcome.
    And in this very room on May 15th we'll have a faith-based 
conference, and we're looking to collaborate and partner with 
different ones. Someone from, let me see, the office here, is 
going to come and speak to us, Theresa Chappelle, who is a 
political appointee of faith-based liaison with the southeast 
region, she'll be here. And we'll have that conference, and 
we're trying to do those things.
    But I can tell you, you asked the question, are there any 
churches that are partnering effectively in this region with 
the government? And the answer's no. I mean, the answer is no. 
I know of one organization that has received a sizable grant as 
an intermediary, and that would be Families Northwest, which is 
working on the marriage component, which we are excited about. 
But there are none. And the reason is because there is a 
concern that if we get in partnership with the government that 
our hands will be tied and we will not be able to serve the 
people the way that we need to serve them.
    This is the last thing that I will say. The answer to the 
urban core resides within the urban core. These are, and 
they're being very humble in how they're sharing with you 
today, but if you have the time to go and see what they're 
doing to change the lives of people, what we're doing to change 
the lives of people, it is very courageous. It is absolutely 
amazing.
    So if the government is going to play a part it must come 
in correct, recognizing that. And what we are finding is there 
are businesses, there are family foundations, there are 
corporations that are understanding that.
    On May 11th here in this city Doug Wheeler will be the 
keynote speaker at a breakfast, of which most of the elected 
officials, business community, etc., will be at, and he will be 
speaking. Last year he was nominated as the Entrepreneur of the 
Year by Ernst & Young. And so these men have dedicated their 
lives, as have others, have dedicated their lives, and as the 
kids would say on the street, they have the juice. The question 
will be, will the government respect them and then follow their 
lead? If they do that, I think together there can be a 
partnership and change can happen. If they don't do that, then 
I think the government will be looking on the outside, saying, 
Boy, aren't you guys doing a great job.
    Mr. Souder. Well, thank you. I'd like to make a couple of 
concluding comments. This is likely to be our last faith-based 
field hearing. It has been really informative. Let me pick up 
on a couple of things that you've said and put them into the 
record.
    A little bit of how some of this process started. I'm old. 
I'm going to be 54 shortly, and I've been in Congress since 
1994, but I was a staffer since 1985, with a break in there 
when I went back home and then decided to run for Congress. But 
when I first went to Washington I worked with the Children, 
Youth and Family Committee. That was a select committee, and I 
was Republican staff director under Dan Coats.
    And when we looked at the problems of children, every week 
or every couple weeks we did a hearing, and it just was 
overwhelming. Then I'd go home and go to a soccer game and I'd 
think, I wonder how many people here are beating their kids; I 
wonder how many do this with their wife; I wonder how many, you 
know, have a drug problem. Or when you drive on the road 
Saturday night you think, man, half these people are whacked 
out. You don't feel safe, and you can become so depressed about 
what's going on and say, how do you tackle this? And do you 
know Bob Woodson with the National Center for Neighborhood 
Enterprise.
    Mr. Drake. Oh, yeah.
    Mr. Souder. Well, he told me when I went to see him. He 
said, ``Don't be a typical white guy who sits on your duff and 
pronounces what's wrong. Go out and meet some of these people. 
In every community there's a rose that's blooming no matter 
what the state of the problem is.'' He said, ``Go out there and 
meet them.'' I said, ``OK. You introduce me and I'll go out.'' 
So I used a lot of my breaks to go out and visit.
    And then Bob himself, and his son Rob worked for me, who 
was unfortunately killed in an automobile wreck just a few 
years ago, but that Bob was not particularly religious, or 
particularly Republican. He was actually more of a Socialist, a 
Democrat who thought the Democrats abandoned him in the 
grassroots, and kind of got used to working with some of us who 
were kind of these evangelical Republican types, and talked to 
us.
    But one of the things that happened that was a big critical 
standpoint that led to the first faith-based legislation in the 
late 1980's and early 1990's, was Bob had a conference, and he 
hauled in a bunch of foundations and a bunch of Federal 
officials, at that time under the Reagan administration. And 
Freddie Garcia, who I mentioned from Victory Life Temple, was 
there. And he told how he was a cocaine addict, and heroin, and 
how he met Jesus Christ and how it changed his life. And now he 
formed this place, and had all these people who were drug 
addicts.
    And I read his book, and I didn't believe him. So I went 
down and looked at it. I've been down three times. I keep 
thinking it's going to fall apart, you know, but it keeps 
growing, keeps spreading. And he said the key was changing 
people's lives.
    Then they moved over to Charles Ballard from Cleveland with 
the National Fatherhood stuff, and he said he worked with 1,000 
people, getting back with their families, much of what you 
talked about. And then he said the only way it sticks is if 
they change their personal life and make a commitment to Jesus 
Christ, they change their life, and they go back to their 
families. Because unless they change their life it's tough to 
get it to stick because it will come and go.
    And about this time there were a couple of foundation guys 
sitting next to me, at that time I was a staffer, and they were 
sliding under the table. Nobody's supposed to be this overt 
about it.
    And then I think, I'm blanking on his name. The guy who put 
the treaty together for the Bloods and the Crips.
    Mr. Drake. Rivers?
    Mr. Souder. No, Eugene Rivers is in Boston. This guy's from 
Los Angeles. He's a big heavy guy.
    Mr. Drake. Rosie? Rosie Greer?
    Mr. Souder. No, not Rosie Greer. This is a big heavy guy, 
not as well known, but he's actually the guy that negotiated 
any treaty that's ever been there. And he said, I've told my 
story about Quake, and I've told my story about these guys to 
all the media. But the truth was Quake became a Christian, and 
it changed his life, and then he started to talk to the other 
guys.
    And Bob Woodson, who hadn't really heard this overt 
himself, but was kind of introducing it to the foundations. 
Digger Phelps was there from the, at that time, the Drug 
Control Policy Office and Reagan administration and others. And 
he said that we've got a problem here. Everybody we're bringing 
in from the street is telling us this, and yet you guys don't 
want them to talk about what's working on the street.
    And that was the first kind of grappling with AIDS and 
homelessness. And as we moved we said, how can we tap into the 
people who are living in the neighborhoods that are very faith-
based, with realizing that character change is part of then 
facilitating? Now, it's true, if you have character change and 
you don't have housing and you don't have jobs and so on, I 
believe the most important thing, by the way, personally, is 
eternal life, and that it's not just here, it's the much longer 
after life. But that said, that part of faith is works, and 
that we need to show that there is a reaction, and we have an 
obligation as Christians to try to reach out and to try to help 
people who are hurting, which is clearly the passion that you 
all have. In addition to having been hurting and watched the 
impact on your lives, you want to reach others that way.
    But as we plunged into this, I was working for Dan Coats, 
who did the Project for American Renewal. And the staffer that 
wrote that, Mike Gerson, now the president's chief speech 
writer, who at that time was with Prison Fellowship that led to 
the Sugarland Project in Texas, that helped get Governor Bush 
involved, and he hired Mike Gerson to write this stuff.
    I am not convinced that this is going to work the way we 
thought it was going to work, and that some of what we're 
trying to work through, you've heard some today, and we're 
going to try to see with this report, how far we can work 
together with the two sides. Because on the Democratic side of 
my subcommittee there's been some concerns about this, but most 
of the Democratic members of the subcommittee are minority, in 
the sense of African American and Hispanic. On the Republican 
side we have another set of concerns because they've been 
mostly representing suburban and rural areas, and they haven't 
looked at urban problems as much.
    And neither of them are overly enthusiastic about this 
project. The Republicans are wondering whether the funds are 
going to go into the Democratic areas, and the Democratics are 
concerned it's going to go to the faith-based groups rather 
than the secular organizations that are their anchor. And it's 
kind of an odd thing we're trying to work through.
    Now, in that mix, I believe that we can work out some of 
the things that you're working with. In other words, I believe 
that as you set up degrees of parts of your organizations that 
don't require as much of a religious message, like you did with 
your housing, which is one area we should be able to work with. 
If we can get vouchers on narcotics, if we can try to figure 
out what do we do inside the Prisons with Wings if it's 
voluntary, with education, with people coming out. Reentry 
programs are ones that we're really looking at, because this is 
a huge problem if we're really going to tackle crime long term, 
and drugs and alcohol, are the reentry programs and how we 
transition that. And the president raised that in the State of 
Union, and that is one that looks like a very promising thing.
    I think that another challenge is because, almost all the 
talk is over in the more traditional social, moral areas that 
deal with families and abuse questions as opposed to the 
economic development side. And that's why I wanted to get that 
on the record today, because we need to be looking at how we 
can get more people educated, like your school, which takes the 
highest risk on demand, to the degree you have an opening. This 
is to be commended beyond any other school that plunges into 
the educational arena, period. If you're willing to take the 
hardest risk and then walk in there, and you'll work with them, 
you deserve the highest level of accommodation.
    It is incredibly frustrating to many of us who favor faith-
based, but who can't figure out how to get the dollars into 
organizations like yours. That's why the whole faith-based 
effort started. But as I've watched this, you know what? If we 
put the dollars in, some of it will kill your passion. You've 
said yourself that you don't want everything to become overly 
bureaucratic. You hire the people around it, and you needed to 
supplement, but all of a sudden if you get too big you've got 
this big monster. And it's your passion, your personal 
relationship, and it's how we can develop other people with 
that, how do you plant that, how do you interact with your 
communities? And I don't want to see the government kill the 
good that's there, yet it's so frustrating to figure out how to 
get the resources there.
    How can we do this from the foundations? How can we get a 
system around the country? There's at least two to three times 
as much money in the private sector as there is in the public 
sector. How do we alert them?
    And what is the responsibility of the suburban churches 
where the assets are? I was just in Fort Wayne, my hometown, 
where one ministry provides food and housing to people just on 
demand, like what you talked about, but he said, it isn't a 
matter just of getting the suburban churches to give to his 
ministry. Every one ought to have their own. In addition to 
that, in other words, it isn't, oh, we gave a few dollars here 
to make us feel less guilty.
    The question is, how do we get it integrated as a whole in 
the philosophy of the Christian church, which is the majority 
of America, that they have responsibility toward those in their 
church, but also in the areas that don't have the assets, and 
how to match that up? And to do that we need strong 
intermediary organizations, and I'm not clear we need 
government, if we are all doing our side and getting into the 
churches.
    And then we can figure out where we match up with the 
government. And we're trying to figure this out. Keith Phillips 
down in Los Angeles gave us some new suggestions of how we can 
get where there's a military base, and use some of their 
equipment on weekends to transport kids to youth camps? We do 
that internationally with some of the organizations. Can we do 
that? Are there other things we can do at the edges, without 
direct funding to the program, some cooperation with the faith-
based?
    If you have any thoughts of things where you can see 
government entities in your area that can match up and tap in, 
I want to get those into the record. Because what we want to do 
is get a laundry list and work through it, because with Bobby 
Scott and some of the others who have been very resistant to 
the direct government funding, I think we can come up with some 
creative subparts that we can build on, and maybe not have the 
direct head-on with where you're able to get lots of direct 
funding, but supplementary things.
    But I do want to make sure we explore this small business 
side with the community development association, and try to 
figure out how to work with that organization to do that. I've 
known and had this tremendous respect for John Perkins for many 
years.
    Pastor Haskins. One of the things that we are looking at, 
there's several enterprise zones here in this area, and we need 
to look at business incubators, we need to look at job 
training, we need to look at all of those kind of things.
    And I think the other role that the government can play is 
the role of a convener. I totally agree with you in terms of 
the impact of your intrusion on the church and that type of 
thing. I've often made this statement, that there are more 
resources locked up within the churches, particularly within 
the broader church, than there ever will be in the government. 
It doesn't mean we don't need government for certain things, 
because we do, but the government can also be a facilitator in 
that. At this local level, We Care Northwest is trying to play 
that role, to convene, but we need to also show a picture, 
because let's just be very clear about this, the urban leaders 
of this community are in many cases making bricks without 
straw, and they're doing the best that they can, and they need 
investment, period, OK?
    It is a shame for Pastor Harvey Drake, who does all the 
things that he does, Pastor Doug Wheeler, to do all the things 
that they do, and change the people's lives that they do, that 
every day they have to worry about operations. It's a shame, 
OK? Zion Prep Academy you have 300 kids plus, and he has to go 
every year and raise that $1.3 million, and if he doesn't raise 
it he's got to stop serving some of those kids. It's a shame.
    And I think part of the thing that I want to say on a very 
positive note is that the current administration has at least 
begun to try to recognize the value of the faith community, 
which is wonderful. Now, I think you can also begin to talk to 
some of these conservative people that are aligned with you, 
that have said a lot of different things, but they have been 
the Levite and the priest in the story of the Good Samaritan. 
They've watched and described the urban community's calamities, 
but they themselves have not engaged in it. And I think that 
the current administration can help facilitate meetings and 
dialog with those that have, that are outside of the community, 
that go around the community, that talk about all the issues, 
but don't necessarily engage, and can help facilitate that. 
Now, here in Seattle we've already done some of that, and we 
are very, very excited about that, but I think that's one of 
the roles that you can play.
    The other thing is this: You have the role of what happens 
when a person goes wrong, goes bad, the prison piece. Then 
there's also the other part of prevention. Let's start at the 
beginning. Let's do some prevention to stop what's happening so 
we're not always reacting. And that's why I'm very, very 
excited about what some of the ministries and the coalition are 
doing on the prevention end, not just at the end when they get 
in prison and get in trouble. Let's stop them before they get 
off the waterfall. And that's where we can understand the value 
of the urban church.
    And understand this: I think it was John DiIulio who talked 
about the assets of the urban church. But the urban church is 
not like the suburban church. It is already a community 
development outreach organization. It has to be that. The 
problem is that it is still anemic. How can you build a 
thriving church in the Rainier Beach community, which is just 
south of here, and you have an average family household income 
of $19,000 a year? It's almost impossible to do that.
    So what can the government do? Government can recognize the 
church, and government can begin to facilitate those resources 
that are currently outside of the community to partner with us 
as we begin to change our own community. So a preventative 
strategy is also necessary, not just on the other end. We spend 
a lot of time with people that have fallen off the waterfall, 
but we need to go all the way back up to the front before they 
fall off, and that's where the education piece fits, these 
learning centers, etc.
    Let me say this to you: What would happen if next to every 
school, because in some close proximity there is a church next 
to these schools, and what if you had these learning centers 
that Pastor Doug Wheeler talked about in all of these schools? 
Let's say in Seattle you had 30 of them that took the worst 
kids, the top 15 percent. They say that 15 percent of the kids 
are responsible for 60 percent of the problems. What if the 
church stood up and said, OK, we want those kids. We're going 
to put them in a learning center. We'll take care of them. I 
think you can see some change. We can do it, but we've got to 
do things out of the box.
    Mr. Souder. I thank you all for your testimony, and 
anything else you want to add and submit for the record we'd 
appreciate very much, and thank you all for your work in the 
community.
    With that the subcommittee stands adjourned.
    [Whereupon, at 1:55 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T8603.106

[GRAPHIC] [TIFF OMITTED] T8603.107

[GRAPHIC] [TIFF OMITTED] T8603.108

[GRAPHIC] [TIFF OMITTED] T8603.109

[GRAPHIC] [TIFF OMITTED] T8603.110

[GRAPHIC] [TIFF OMITTED] T8603.111

                                 <all>

</pre></body></html>
